<html>
<title> - U.S. POLICY IN SYRIA</title>
<body><pre>[Senate Hearing 112-365]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-365

                          U.S. POLICY IN SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations








<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
73-917 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         MIKE LEE, Utah
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia

                              (ii)        













                            C O N T E N T S

                              ----------                              
                                                                   Page

Bronin, Luke A., Deputy Assistant Secretary for Terrorist 
  Financing and Financial Crimes, U.S. Department of the 
  Treasury, Washington, DC.......................................    12
    Prepared statement...........................................    13
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Feltman, Hon. Jeffrey D., Assistant Secretary of State for Near 
  Eastern Affairs, U.S. Department of State, Washington, DC......     5
    Prepared statement...........................................     7
    Response to question submitted for the record by Senator 
      Richard J. Durbin..........................................    48
Risch, James E., U.S. Senator from Idaho, opening statement......     4

              Additional Material Submitted for the Record

Prepared statement of Mark Dubowitz, Esq., Executive Director, 
  Foundation for Defense of Democracies..........................    34
    Discussion Paper jointly produced by the Foundation for 
      Defense of Democracy and the Foreign Policy Initiative.....    35
Prepared statement of Andrew J. Tabler, Next Generation Fellow, 
  Program on Arab Politics, Washington Institute for Near East 
  Policy.........................................................    43
Prepared statement of Maria McFarland, Deputy Washington 
  Director, Human Rights Watch...................................    44

                                 (iii)

  

 
                          U.S. POLICY IN SYRIA

                              ----------                              


                      WEDNESDAY, NOVEMBER 9, 2011

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Boxer, Shaheen, Durbin, Risch, 
Lugar, Corker, and Rubio.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    We will get started. I want to thank everyone for being 
here today. I will have an opening statement, and then we will 
go to the statement from our witnesses and then go to 
questions.
    I want to thank everyone for being here today.
    The Senate Foreign Relations Committee meets today and our 
Subcommittee on Near Eastern and South and Central Asian 
Affairs meets to examine U.S. policy toward Syria. We know that 
Syrian men, women, and children have courageously--and that is 
an understatement--engaged in demonstrations for more than 6 
months in their country. They seek basic democratic reforms and 
protection for human rights, but the Assad regime in Syria has 
responded with terrible, unspeakable violence. The United 
Nations estimates that more than 3,500 people have been killed 
since the unrest began in March of this year.
    Over the past week, Syria's third-largest city of Homs has 
been engulfed in perhaps the worst violence we have seen in 
Syria this year. In just a week, more than 100 people have 
reportedly been killed, all of this coming during the Muslim 
holiday of Eid al-Adha, and all of this coming after months and 
months of repression and violence.
    And perhaps most important of all, this violence comes 1 
week after the Assad regime agreed to an Arab League deal for 
reform. In direct violation of this agreement, Assad's forces 
have not removed their tanks and armored vehicles from the 
streets of towns across the country. Violence aimed at 
demonstrators has not stopped or even slowed. Political 
prisoners--and there are reportedly tens of thousands of them--
have not been released. Neither international journalists nor 
human rights monitors have been admitted into Syria.
    Assad made it clear to the world that he has no interest in 
or no intention to pursue democratic reform. In fact, he has 
proven to the world that democratic reform is now not possible 
while he remains in power.
    For months, I and others have spoken about this grave 
situation in Syria. I have shared accounts of a regime whose 
brutality affects 22 million Syrians, as well as my 
constituents in Pennsylvania. I have told the story before of 
Dr. Hazem Hallek, a Syrian American who lives in suburban 
Philadelphia. He was visited by his brother Sakher earlier this 
year. Sakher, who is also a doctor, was not engaged in politics 
of any kind. Upon his return to Syria after visiting his 
brother, he was tortured and killed by Assad's forces just for 
having visited the United States of America.
    The press has reported accounts of school children 
arrested, parents and community members murdered, 
disappearances and mutilations all across the country of Syria.
    In an August Washington Post op-ed, I wrote that Mr. Assad 
must step down from power. We, who recognize the horror in 
Syria, have a responsibility to bear witness to the truth, the 
truth of this slaughter, and to work against it.
    Ambassador Robert Ford has taken on this critical task and 
represented the United States with honor and distinction, and I 
would also add with remarkable courage. I applaud the work of 
the Ambassador and his top-notch Embassy staff. We are grateful 
for their sacrifice and their service.
    But we must continue to take specific and visible actions 
to support democratic reform.
    First, we need to make it clear to the regime's supporters 
that their behavior will not be tolerated and they will be held 
accountable just as the regime will be held accountable. The 
administration, working with our European allies, should 
sanction more individuals within the regime who are complicit 
in the repression of protests. To date, 17 individuals and 18 
entities have been sanctioned. The world needs to know their 
names and they need to decide whether they, those who are 
complicit, will continue to aid and abet a regime which has 
killed thousands. This week, I will send a letter to the 
Treasury Department to urge the administration to expand the 
list of individuals to be sanctioned by the United States. The 
administration can do this by Executive order and should do so 
as soon as possible. That is first.
    Second, the United States must play a constructive role in 
isolating or, I should say, continuing to isolate the Assad 
regime. In October, I called for the establishment of a Friends 
of the Syrian People contact group. This contact group can 
serve as a main point of international engagement for the 
democratic opposition and the Syrian people. The Arab League, 
the Gulf Cooperation Council countries, and others could form 
the core of such a group, which would send a clear message of 
international solidarity and support of democratic change in 
Syria. I hope that this suggestion would be seriously 
considered by the Arab League when it meets to discuss Syria 
this Saturday. The United States should continue to fully 
support these regional efforts to pressure the regime.
    In its agreement with the Assad government, the Arab League 
committed to sending international monitors to see firsthand 
the situation in Syria. Those monitors are needed now, not days 
or weeks from now, but now. The Arab League should send them 
today. If Assad blocks the deployment of these monitors, the 
Arab League should suspend Syria's membership in the 
organization. The United States should also make another push 
to pursue a resolution condemning the Assad regime at the 
United Nations. Strong international opposition and commitment 
to isolating the Assad regime is the key to bringing about 
democratic reform.
    The U.S. Senate as well should also support these efforts 
to isolate the regime. Through our regular interaction with 
embassies here in Washington, individual Senators can express 
concern for the ongoing violence and show their support for 
democratic change in Syria.
    Third, the courageous Syrian political opposition must work 
to communicate a unified vision for the future of Syria. This 
opposition faces many disadvantages that other protesters from 
across the region did not face. Syrians do not have a Tahrir 
Square on which to gather in large numbers. They do not have 
open borders through which they can leave at will and find safe 
haven. They do not have the full attention of the international 
media, which have been barred from the country.
    Despite these challenges, I believe that the Syrian 
opposition will be involved directly in the country's future. 
It is imperative that the Syrian National Council answer 
questions about its composition and its intent. Who are the 
members of the Syrian National Council? Where does it stand on 
the role of the international community in stopping the 
violence and supporting democratic reform? And most 
importantly, how will minorities be treated in a post-Assad 
Syria? We have yet to hear a clear message from the opposition 
on these most essential issues.
    The Syrian National Council must be committed to protecting 
all--all--of Syria's ethnic and religious groups, including 
Christians and Alawites. The Syrian National Council must speak 
with one voice and make it clear that it will advocate for 
minority rights in the new government it hopes to create. The 
Syrian people deserve answers to these key questions which 
will, in large part determine the degree of support the 
opposition has inside and outside the country.
    Secretary of State Hillary Clinton said in a speech on 
Monday that Assad ``cannot deny his people's legitimate demands 
indefinitely. He must step down; and until he does, America and 
the international community will continue to increase pressure 
on him and his brutal regime.'' So said Secretary Clinton. My 
questions today will center primarily on how we can and will 
increase the pressure on this regime.
    I look forward to hearing from our witnesses on a number of 
key issues.
    First, what can regional powers, including the Arab League 
and Turkey, do to play a more constructive role in supporting 
the democratic reform process in Syria?
    Second, what is the impact of current U.S. sanctions on the 
Assad regime?
    Third, how is the United States working unilaterally and 
with the European Union to strengthen sanctions on Syria?
    Another question is, How does the United States assess the 
current state of the Syrian National Council. What are the 
criteria 
by which this movement should be judged in order to gain 
international legitimacy?
    And finally, what are the assessments of our witnesses of 
growing sectarianism in Syria and whether it could lead to 
civil war?
    We are fortunate today to have with us two witnesses who 
can speak about U.S. policy in Syria: the Honorable Jeffrey 
Feltman, Assistant Secretary of State for Near Eastern Affairs 
at the Department of State--Mr. Feltman, we are grateful you 
are here--and Luke Bronin, Deputy Assistant Secretary for 
Terrorist Financing and Financial Crimes at the Treasury 
Department. We are grateful you are here as well. These 
witnesses have extensive experience and expertise in the 
region, and I look forward to their insights as to why our 
policy has not yet produced the desired results and what more 
we can do. We are grateful for their testimony today and 
grateful for their service.
    And I would say in conclusion, before turning to Senator 
Risch if he has any opening comments, that this is a matter, I 
think, of basic justice for the people of Syria. A long time 
ago, St. Augustine said without justice, what are kingdoms but 
great bands of robbers. And the people of Syria for a long 
period of time, but especially over these last horrific number 
of months have been robbed of a lot of things, robbed of their 
dignity, robbed sometimes of their life and their freedoms. And 
we have to speak out with one voice on a matter of basic 
justice for this country. And I know that there are a lot of 
Americans that are deeply concerned about this issue.
    And we are grateful that we have so many people here to 
listen today to this testimony and to listen to the questions 
of our witnesses. And I am grateful for our colleagues being 
here.
    And I wanted to ask our ranking member, Senator Risch, if 
he has any opening comments.

              OPENING STATEMENT OF JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you very much, Senator Casey.
    Welcome to all of you.
    We have many, many issues that are important under the 
purview of this committee that deals with the Near East and 
North Africa. The questions and the issues surrounding Syria 
certainly are at the top of that list. All of us have watched--
not only us in this committee, all Americans--the world has 
watched as things have unfolded in the Middle East in the Arab 
world this spring. We have watched them play out, and now 
everything seems to be focused on Syria. That seems to be where 
the current unresolved issues are.
    There is a huge difference here, of course, between Syria 
and what happened in Libya. The opposition in Syria is 
essentially unarmed, and as a result of that, they do not have 
the ability that the Libyan people had to do what they believed 
needed to be done.
    We, as the United States, need a policy that is very clear 
that we will do everything we can to cut off the sources of 
Assad's finances and also the flow of weapons and to do 
everything we can to isolate this regime.
    I agree with Senator Casey. Mr. Ford is the right person. I 
disagreed with appointing an Ambassador because Assad had been 
so brutal with his people. Having said that, I agree with the 
President that Mr. Ford is the right person for the job.
    I think it is in the interest of every American and, 
indeed, the interest of the civilized world to isolate this 
regime as much as possible. This is a bipartisan issue. It is 
an American issue.
    I am anxious to hear the suggestions that we get from the 
panel and hear about the efforts that we are making in that 
regard, and all of us can commit to move forward to do our best 
to isolate the regime which hopefully will reach the results 
that all of us want to see.
    Thank you, Senator Casey.
    Senator Casey. Thank you, Senator Risch.
    So we will start with the opening statements, and then we 
will go to questions. I spoke to both of our witnesses and they 
have agreed to try to keep within 5 minutes if they can. Both 
of your full statements, of course, will be made part of the 
record for this hearing. And we will start with Assistant 
Secretary Feltman. Thank you.

 STATEMENT OF HON. JEFFREY D. FELTMAN, ASSISTANT SECRETARY OF 
   STATE FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Feltman. Chairman Casey, Ranking Member Risch, 
distinguished members of the committee, Senator Lugar, thank 
you for inviting us to appear before you today to discuss our 
goals with regard to Syria and the strategy that we are 
implementing to achieve them.
    Bashar al-Assad is destroying Syria and destabilizing the 
region. As Secretary Clinton said 2 days ago, the greatest 
source of instability in the region is not people's legitimate 
demands for change. It is the refusal to change. An orderly 
democratic transition that removes Assad from power and 
restores stability is clearly in the United States interest, as 
it is in the interest of the Syrian people. It will support our 
goals of promoting democracy and human rights, contribute to 
greater stability in the region, and undermine Iran's 
influence.
    Our message to President Assad can be summed up briefly. 
Step aside and allow your people to begin a transition to 
democracy.
    Though we would like to see this transition proceed as 
quickly as possible, we should be prepared for the process, 
unfortunately, to be long and difficult. Much has already 
changed since the unrest began 8 months ago. Internally a large 
and growing number of Syrians have concluded that Assad must 
go. Protests that started in the remote village of Daraa now 
take place in nearly every city and major town in the country. 
For the regime to retain power, the Syrian Army has had to 
occupy its own country, but the regime's overwhelming use of 
force has not been able to suppress Syria's courageous street 
protesters demanding their universal rights.
    And internationally, Syria is increasingly isolated as the 
international community loses patience with Assad's brutality 
and broken promises. Nearly all of Syria's neighbors now 
recognize that Assad is dangerously fomenting instability, and 
that is why we see this unusual Arab League leadership on a 
country that is considered to be very important politically and 
strategically in the Arab world. The Arabs want Assad to stop 
destroying Syria.
    The Gulf Cooperation Council described the regime as, ``a 
killing machine.'' After several years of strengthening ties 
with Syria, Turkish Prime Minister Erdogan said, ``those who 
repress their own people in Syria will not survive.'' 
Totalitarian regimes are disappearing. The rule of the people 
is coming.
    The coverage of the regime's brutality in pan-Arab media 
has also destroyed Assad's standing in the Arab street. He has 
become a pariah in the Arab world. Almost all the Arab leaders, 
the Foreign Ministers who I talk to, say the same thing. 
Assad's rule is coming to an end. It is inevitable. Some of 
these Arabs have even begun to offer Assad safe haven to 
encourage him to leave quickly.
    We welcome the efforts of the Arab League to stop the 
violence, but the regime must be judged by its actions not by 
its words. The killing, as you said, Mr. Chairman, has 
continued unabated, and we urge our Arab partners to condemn 
the regime and assume a greater role in building international 
pressure, including at the United Nations.
    Economically tough United States and European Union 
sanctions and financial mismanagement by the Syrian regime are 
changing the calculus of Syria's business elite. Oil revenue is 
now almost nonexistent. The regime's assets in the United 
States and European banks have been frozen. And Syria is cut 
off from most of the international financial system. As cash 
starts to dry up, the more Syrians see that the regime is not 
sustainable.
    Complementing our international efforts, Ambassador Ford, 
as both of you mentioned, and his team are doing courageous 
work. And thank you to this committee for confirming him. He is 
currently in the United States on leave and we expect him to 
return to post soon.
    Overall, we are following a deliberative course that takes 
into account Syria's unique circumstances. We do not want to 
see the situation descend into further violence. The best way 
forward is to continue support for the nonviolent opposition 
while working with international partners to further isolate, 
to further pressure the regime. This creates an environment in 
which the Syrians can take control of their own future.
    You mentioned the Syrian National Council. We welcome the 
establishment of the Syrian National Council, a broad coalition 
of opposition groups from inside and outside Syria. When you 
consider the past 40 years Syrians have been prevented from 
engaging in any political activity, what the opposition has 
already achieved is truly remarkable. We, the United States, 
have not endorsed any particular opposition group. The Syrian 
people alone will decide who can legitimately represent them. 
The opposition must continue to expand and consolidate its base 
within Syria by convincing more Syrians of the legitimacy of 
its vision and its transition plan which demonstrates that 
there is a better alternative to Assad.
    While we understand the Syrian people's need to protect 
themselves, violent resistance is counterproductive. It will 
play into the regime's hands. It will divide the opposition. It 
will undermine international consensus. To create better 
protection for civilians in the near term, we are pressing for 
access to human rights monitors and journalists. We will 
relentlessly pursue our strategy of supporting the opposition 
and diplomatically and financially pressuring the regime until 
Assad is gone and until the Syrians are able to complete their 
democratic transition.
    Assad may, through his brutality, be able to delay or 
impede this transition, but he cannot stop it.
    We look forward to working with the Syrian people as they 
chart a new and democratic future.
    [The prepared statement of Ambassador Feltman follows:]

          Prepared Statement of Ambassador Jeffrey D. Feltman

    Chairman Casey, Ranking Member Risch, distinguished members of the 
committee, thank you for inviting me to appear before you today to 
discuss our goals with regard to Syria and the strategy we are 
implementing to achieve them.
    Much has changed both within Syria and in the international 
response to what is happening inside Syria since the unrest began 8 
months ago. Protests that started in the provincial village of Dara'a 
have spread to every city and every major town in the country. The 
Syrian people have demonstrated an irrepressible hunger for a change in 
the way their country is governed. They are no longer willing to 
tolerate the blatant denial of their universal rights and trampling of 
their dignity. They are no longer willing to remain quiet about the 
rampant corruption, brutality, and ineptitude of the mafia-like Assad 
clique that has hijacked the Syrian state and transformed it into an 
instrument whose sole purpose is to retain power in the hands of a 
small group of self-interested elites.
    The protestors in Syria have overcome the barrier of fear. They are 
out on the streets of cities and towns all over Syria every single day 
despite the relentless and indiscriminate violence that the regime has 
deployed against them. According to the estimates of the U.N. High 
Commissioner for Human Rights, over 3,500 Syrians have been killed 
since the protests began. Tens of thousands have been detained, and 
many of those have been tortured. In a report of her findings in 
August, the High Commissioner noted ``a pattern of human rights 
violations that constitutes widespread or systemic attacks against the 
civilian population, which may amount to crimes against humanity.'' The 
violations included murder, forced disappearances, summary executions, 
torture, deprivation of liberty, and persecution. But the regime's 
overwhelming use of force has not been able to suppress the street 
protests. Peaceful street protestors have passed the point of no 
return. They will not stop until Bashar al-Assad and his clique are 
gone.
    The Syrian army has been forced to occupy its own country. Even 
small towns are continuously occupied by tanks, armored personnel 
carriers, and battalions of foot soldiers along with plain-clothes 
intelligence personnel and regime-sponsored armed groups who do much of 
the dirty work. The pressure is starting to wear on the army. It is not 
just the fast, unsustainable tempo of operations and unending 
redeployments ordered to quell every manifestation of dissent--the 
soldiers of the Syrian Army are increasingly rejecting a mission that 
calls for them to kill and brutally repress their own countrymen, in 
some cases people from their own tribes and hometowns. Military 
defections, primarily by conscripts and junior officers, are on the 
rise, and the pressure on senior officers continues to mount.
    The violence is still continuing. In its desperation, the regime is 
executing a deliberate and bloody strategy of channeling peaceful 
protest into armed insurrection. It is stoking the fears of Syria's 
minority communities with blatant propaganda about foreign conspiracies 
and domestic terrorism while cynically claiming that the regime is 
their only protection from sectarian violence. Make no mistake: the 
regime is driving the cycle of violence and sectarianism. The Syrian 
people are resisting it, but the regime is working diligently to 
fulfill its own prophecy of intercommunal violence.
    Assad and his inner circle know they cannot contain or manage 
peaceful opposition, so they assault it with violence and with terror. 
They believe they can handle a violent resistance because violence is a 
medium they know well. Mass arrests, shabiha thuggery and outright 
regime violence have forced peaceful protestors to adapt their methods. 
They now arrange gatherings of smaller groups on short notice and 
disperse before security forces are able to respond. And as they are 
literally beaten off the streets, protestors are learning new forms of 
peaceful resistance such as boycotts and strikes. Security forces have 
responded to civil disobedience such as last week's general strike in 
Dara'a with intimidation and vandalism.
    While, for the most part, the opposition has thus far refused to be 
baited into responding with violence, armed resistance to the regime is 
on the rise, with some taking up arms in self-defense. This is not 
surprising given that they are faced with increasingly brutal 
repression and are still denied the political space to organize and 
make their voices heard peacefully. But it is potentially disastrous to 
their cause. Forcing the opposition to become violent is the deliberate 
strategy of the Assad government. The regime is confounded by 
protestors chanting ``peaceful, peaceful'' and shopkeepers who shutter 
their stores in solidarity with those killed and arrested, but it knows 
precisely how to handle armed insurrection: with brutal and 
overwhelming force. By working diligently to channel nonviolent 
opposition into a protoinsurgency, the regime seeks to discredit the 
opposition, scare minorities into submission, unite security forces 
against a common enemy, fragment international consensus and tear Syria 
apart along sectarian lines. This must be resisted.
    On the economic front, the regime's financial situation is growing 
increasingly dire. Tough, targeted sanctions from the United States and 
the European Union have squeezed the regime's cash-flow. Oil revenue, 
which used to make up about a third of government revenue, is drying 
up. Europe used to buy more than 90 percent of Syria's crude. Today it 
buys none. As a result, the Syrian Government has had to dramatically 
cut oil production. All its storage tanks are filled to capacity. 
Despite months of desperate efforts to entice potential new buyers with 
offers of deep discounts, the regime has been unable to find 
alternative customers.
    Meanwhile, we have required U.S. persons to block Syrian regime 
property and the EU has frozen assets of two Syrian banks for their 
role in facilitating the regime's access to the international financial 
system. Even non-U.S. and non-European companies that are not directly 
affected by our sanctions have come to the conclusion that it is not in 
their interest to do business with this regime. And it is not just the 
United States and EU that are tightening the financial noose around the 
regime. Canada and Japan have deployed sanctions of their own.
    But more than sanctions, it is the financial ineptitude of the 
Syrian Government that is driving Syria's economy over a cliff. The 
Syrian economy was already in a precarious state before this crisis. 
The regime's mismanagement and attempts to buy its way back into 
political favor have vastly exacerbated the problem. This is why we 
have urged our Arab and European partners to increase their pressure on 
the regime now, before Bashar al-Assad precipitates a complete collapse 
of the Syrian economy.
    Turning to the Syrian opposition, one of the more promising recent 
developments is the establishment of the Syrian National Council, a 
coalition including secularists, Christians, Islamists, Druze, Alawis, 
Kurds and other groups from both inside and outside Syria who have 
joined together to form a united front against the Assad regime. When 
you consider that for the past 40 years, the Syrian people have been 
prevented from engaging in any political activity or even political 
discussion, it is truly remarkable that in a matter of just a few 
months, the SNC has managed to bring together such a broad array of 
groups into a united coalition, despite the regime's relentless 
attempts to thwart their efforts. We have not endorsed any specific 
opposition group--only the Syrian people can decide who can 
legitimately represent them. But we take the advent of the SNC very 
seriously, and we support the broader opposition's efforts to focus on 
the critical task of expanding and consolidating its base of support 
within Syria by articulating a clear and common vision and developing a 
concrete and credible post-Assad transition plan.
    There are still many Syrians who, while they are appalled by Bashar 
al-Assad, see his continued rule as preferable to alternatives they 
fear will be worse. It is up to the opposition to convince those 
Syrians that a credible alternative exists and that Assad's departure 
will not mean chaos, civil war, or a new form of tyranny, but rather a 
representative, pluralistic, secular and accountable government that 
will operate by rule of law, respond to the needs of its people, and 
uphold and protect the rights and interests of all Syrians, regardless 
of sect, ethnicity, gender or class. The United States understands 
Syrians will determine their own formula for government by the consent 
of the governed, but we will not support an outcome that replaces one 
form of tyranny or repression with another.
    We continue to meet regularly with members of the opposition, 
including, but not exclusively, many SNC members, and we encourage 
other governments to do the same.
    The positions of Syria's neighbors have changed dramatically since 
March. Whereas, the initial inclination of many leaders in the region 
was to support Assad as the ``devil they knew'' and putative guarantor 
of stability, nearly all of the regional leaders with whom I engage now 
recognize that Assad and his regime are driving the instability. They 
recognize that Assad is part of the problem, not the solution and--some 
quietly, some not so quietly--admit to wanting him gone. They recognize 
that if Assad is allowed to continue, he will precipitate their worst 
nightmare: the collapse of the Syrian state with violence spilling over 
into the rest of the region. This crisis could easily spread beyond 
Syria's borders; Turkey, Jordan, and Lebanon already host thousands of 
refugees.
    The Gulf Cooperation Council has described the Syrian regime as a 
killing machine. Turkish Prime Minister Recep Tayyip Erdogan has said 
he believes the opposition will be successful in their ``glorious'' 
resistance to the ongoing government crackdown. During a September 
visit to Libya, he said, ``Those who repress their own people in Syria 
will not survive. The time of autocracies is over. Totalitarian regimes 
are disappearing. The rule of the people is coming.''
    The continuous coverage of the Assad regime's brutality in the pan-
Arab media has decimated Assad's standing on the Arab street. A recent 
poll by the Arab American Institute suggests that Assad has become a 
pariah in the Arab world. The poll, conducted in early October surveyed 
over 4,000 Arabs in six countries. Just 3 years ago, a regionwide poll 
of the same six countries asked respondents to name a leader, not from 
their own country, that they most respected. Bashar al-Assad scored 
higher than any other Arab head of state. Today, however, the 
overwhelming majority of Arabs side with those Syrians demonstrating 
against the government (with support for them ranging from 83 percent 
in Morocco to 100 percent in Jordan). When asked whether Bashar al-
Assad can continue to govern, the highest affirmative ratings he 
receives are a mere 15 percent in Morocco and 14 percent in Egypt, with 
the rest in low single digits.
    The Arab League has repeatedly condemned the regime's violence and 
called for a peaceful political solution while insisting that the 
Syrian regime meet a set of reasonable conditions before any 
negotiations begin. The League dispatched its Secretary General to 
Damascus on September 10 and a ministerial-level delegation on October 
26. After strenuous efforts to wiggle out of or dilute the League's 
conditions, on November 2, the Syrian Government accepted the terms of 
an Arab League plan that includes:

  <bullet> A cessation of violence;
  <bullet> The release of political prisoners;
  <bullet> The withdrawal of security forces from populated areas;
  <bullet> Free access for journalists and Arab League monitors; and
  <bullet> An Arab League-hosted national dialogue between the Syrian 
        Government and the opposition.

    We welcome the efforts of the Arab League to stop the Assad 
regime's assaults on the Syrian people, but success of the Arab League 
mission will depend not on what the regime says, but on what it does. 
The regime must comply with each of these obligations fully--not within 
weeks but within days. It must not be allowed to exploit this process 
to buy time through half measures, token gestures, and endless 
discussion of technicalities, while more Syrians are killed and 
imprisoned. We strongly support free and unfettered access to Arab 
League monitors throughout Syria, but they should be complemented by 
internationally recognized professional human rights monitors as well 
as journalists. Syria needs credible witnesses throughout the country 
that can document and deter the regime's violent excesses.
    As for dialogue, it is up to the opposition to decide whether or 
not it wishes to discuss with the regime the terms of Syria's 
transition from dictatorship to democracy. Under no circumstances 
should a dialogue be a precondition for ending regime violence against 
Syrian citizens. Nor should the regime be able to dictate which 
oppositionists should take part in discussions or where those 
discussions should take place.
    Since the Syrian regime ``agreed'' to the League's conditions on 
November 2, scores of innocent Syrians have been killed. Security 
forces remain deployed in most cities and towns. Tanks and artillery 
continue to fire into residential areas in Homs. Thousands of peaceful 
protestors remain in detention. Arrests continued unabated. If the 
regime continues to spurn this most recent ``last chance,'' we hope 
that the Arab League will take additional, clear measures to express 
its condemnation of the Syrian regime and solidarity with the Syrian 
people while taking a leading role in building international pressure 
for a political transition in Syria, including at the United Nations.
    The topic of Syria is consistently raised in diplomatic 
conversations with Arab leaders. And in those conversations, almost all 
the Arab leaders say the same thing: Assad's rule is coming to an end. 
Change in Syria is now inevitable. It is only a question of how long 
Assad will fight to hold onto power and how many more innocent Syrians 
have to die before his rule ends. Some Arab leaders already have begun 
to offer Assad safe-haven in an effort to encourage him to leave 
peaceably and quickly.
    Iran continues to be complicit in the violence in Syria, providing 
material support to the regime's brutal campaign against the Syrian 
people. Cynically capitalizing on the Syrian Government's growing 
alienation from its Arab neighbors, Iran is seeking to increase its 
influence in Syria and help Assad remain in power as a vital conduit to 
Hezbollah in Lebanon. But public statements last month by President 
Ahmadinejad calling for Assad to stop the violence and enact reforms 
might indicate that even the Iranians doubt the sustainability of 
Assad's rule. Still, Iran has provided political, financial, and 
material assistance in support of the regime's brutal crackdown against 
the Syrian people.
    We remain actively engaged in ratcheting up the pressure on Assad 
bilaterally and multilaterally. Following President Obama's statement 
on August 18, governments from every continent echoed the President's 
call for Assad to step aside. Since the beginning of the Syrian unrest, 
we have pursued targeted financial measures to increase pressure on the 
Syrian regime and its enablers. We have specifically targeted those 
responsible for human rights abuses, senior officials of the Syrian 
Government, and the regime's corrupt business cronies. The Executive 
order signed by the President in August blocks the property of the 
Syrian Government, bans U.S. persons from new investments in or 
exporting services to Syria, and bans U.S. imports of, and other 
transactions or dealings in, Syrian-origin petroleum or petroleum 
products. These measures represent some of the strongest sanctions the 
U.S. Government has imposed against any country in the world.
    In addition, European sanctions banning the purchase of Syrian 
petroleum products--the regime's most important source of foreign 
exchange--and freezing the assets of select Syrian banks in Europe have 
had an arguably greater impact given the larger volume of Syrian trade 
with Europe. We are also working with our international partners, 
including our Arab allies, to block efforts by the Syrian regime to 
circumvent American and European sanctions. The United States and 
European Union will continue to deploy new sanctions against key regime 
figures, regime enablers (including the regime's corrupt businessmen 
cronies), and companies and organizations that support the regime. 
These sanctions include asset freezes and travel bans targeted to 
affect the regime while sparing the broader economy to the greatest 
extent possible.
    We have led the effort to hold two special sessions of the U.N. 
Human Rights Council on the situation in Syria. At the second special 
session, we worked closely with many of Syria's Arab neighbors, 
including Saudi Arabia, Kuwait, Qatar and Jordan, to ensure unified 
regional condemnation of the Syrian regime and to establish a 
Commission of Inquiry to investigate the ongoing human rights 
violations. We expect the Commission of Inquiry to be permitted to 
carry out its mission without restrictions. We believe that the 
introduction of more witnesses will play a critical role in proving to 
the world what is really happening in Syria and mobilizing fence-
sitting nations to join us in bringing greater pressure to bear on the 
regime.
    Despite the October 4 veto of the EU-sponsored draft resolution on 
Syria, we remain committed to pursuing multilateral sanctions at the 
Security Council. But if Russia and China cynically continue to stand 
in the way of international efforts to end the violence in Syria, the 
United States and other allies of the Syrian people will consider other 
steps to ensure the Syrian people are protected. The U.N. is one 
important channel but not the only one. Nevertheless, we will continue 
our efforts to convince Russia, China, India, Brazil, and South Africa 
to change their positions regarding sanctions against Syria, and we 
will encourage our Arab allies and the Syrian opposition to 
aggressively engage with those countries as well.
    In the meantime, we would suggest that these countries ask and 
answer some basic questions. Does the regime permit peaceful protest? 
Does it allow the peaceful opposition to organize, discuss, and 
deliberate without fear of assassination or arrest? Does the regime 
permit the U.N. Commission of Inquiry to enter Syria and do its 
internationally mandated work? Does it allow human rights monitors and 
journalists to witness the situation on the ground? Has the regime met 
any of its self-imposed deadlines for reform or for ending violence 
against civilians? The answer to all of these questions is obviously 
no.
    Complementing our international efforts, Ambassador Ford has been 
doing exceptional work in providing Washington policymakers with a 
clear perspective of what is happening in Syria. Thank you for 
confirming him. He has boldly delivered strong messages to the Syrian 
regime and met repeatedly with opposition figures and civil society. 
His courageous efforts show our resolve to pressure the Syrian regime 
to end its senseless killing, demonstrate our solidarity with the 
Syrian people, and help to shine an international spotlight on the 
gross abuses of the Assad regime. This administration's principled 
stand against Assad's brutality, and the Ambassador's own actions to 
show solidarity with the Syrian people, have led to attacks and 
intimidation by the regime against Embassy Damascus and Ambassador Ford 
himself. He is currently in the United States on leave, and we expect 
that he will return to his post before long. For as long as we are 
able, we will maintain an Embassy and an Ambassador in Damascus. Robert 
Ford will continue to interact with the Syrian people and the Syrian 
Government.
    Overall, the administration is following a careful but deliberate 
and principled course. This is necessary given Syria's complex and 
unique circumstances. We do not seek further militarization of this 
conflict. Syria is not Libya. Nor, for that matter, is it Tunisia, 
Egypt, or Yemen. The way forward includes supporting the opposition 
while working with our international partners to further isolate and 
pressure the regime through diplomatic and financial means. We will 
work with the Syrian people and our international partners to do what 
we must to ensure that Assad and his regime are prevented from 
murdering Syrian citizens and tearing the Syrian state apart.
    The Syrian people are entitled to freedom of expression, peaceful 
assembly, and association, basic rights enshrined in the U.N.'s 
Universal Declaration of Human Rights, to which the Syrian republic is 
a signatory. The Syrian people are seeking a government that abides by 
these principles, and which governs only with the consent of its 
citizens. The emergence of such a government in Syria is in the 
interest of the Syrian people and in the interest of the United States.
    We ideally seek a peaceful Syrian-led political transition that 
includes the end of Bashar al-Assad's rule and the replacement of the 
corrupt, incompetent, and violent regime he built and tolerated with 
one responsive to the needs of the Syrian people. One thing I have 
learned from the events of the Arab world in the past year is humility 
regarding my own ability to predict the outcomes or timelines of these 
convulsive and transformational processes. I cannot tell you exactly 
how long it will take to achieve this outcome in Syria. It has the 
potential to be a long, difficult process, but the sooner the better 
for Syria and the region.
    While the United States sympathizes with Syrian military defectors 
and average citizens attempting to protect themselves, we urge them to 
think strategically about how best to accomplish their goals. We still 
believe that violent resistance is counterproductive. It will play into 
the regime's hands, divide the opposition, and undermine international 
consensus against the regime. We urge the opposition, and our regional 
allies, to continue to reject violence. To do otherwise would, frankly, 
make the regime's job of brutal repression easier. At the same time, 
all Syrians must know that they have the support of the international 
community.
    How do we stop spiraling violence? As a means of creating greater 
protection for civilians, documenting human rights abuses, and ensuring 
that undecided governments have a clearer view of what is really 
happening inside Syria, we continue to press for immediate, unfettered, 
and sustained access for internationally recognized human rights 
monitors, the U.N. Human Rights Council's Commission of Inquiry, and 
independent journalists. If skeptics on the Security Council still 
believe Assad's propaganda about armed gangs, let them join the call 
for monitors and journalists who could prove it. The introduction of 
credible witnesses throughout Syria would both deter and ensure 
documentation of the regime's worst excesses. And it would diminish the 
temptation for protestors to put down their placards and pick up 
weapons. The Arab League has already insisted that Syria accept 
monitors as part of its plan to end the violence. The United States 
strongly supports European-led efforts to introduce a resolution in the 
U.N. General Assembly's Third Committee that would insist on the same.
    Bashar al-Assad is desperate to convince himself and others that 
Syria is fine. In the relative calm of central Damascus, he may 
actually believe it. But when the money runs out, he and his inner 
circle will be forced to face the desperate reality of their situation 
and ideally will head for the exits voluntarily.
    What we have to say to President Assad can be summed up very 
briefly: step aside and allow your people to begin the peaceful, 
orderly transition from authoritarianism to democracy. Bashar al-Assad 
has proven that he is incapable of reform. Our advice is to President 
Assad is that he leave now. He may want to study the recent examples of 
other Arab autocrats who have been confronted by populations that have 
overcome the barrier of fear to demand their universal rights. If Assad 
truly has Syria's interests at heart, he will leave now. We will 
relentlessly pursue our two-track strategy of supporting the opposition 
and diplomatically and financially strangling the regime until that 
outcome is achieved.

    Senator Casey. Thanks very much.
    Mr. Bronin.

  STATEMENT OF LUKE A. BRONIN, DEPUTY ASSISTANT SECRETARY FOR 
 TERRORIST FINANCING AND FINANCIAL CRIMES, U.S. DEPARTMENT OF 
                  THE TREASURY, WASHINGTON, DC

    Mr. Bronin. Chairman Casey, Ranking Member Risch, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today. I am pleased to join 
Assistant Secretary of State Feltman. We have a great 
partnership with the State Department and the State 
Department's Syria team.
    In my testimony today, I would like to review the role of 
financial sanctions in our Syria strategy.
    Since the Syrian uprising began in March 2011, President 
Obama has issued three new Executive orders. The first, signed 
in April, targets those responsible for human rights abuses in 
Syria. The second, signed in May, directly sanctions President 
Assad and senior members of his regime. And the third, signed 
in August, imposes a full government blocking program 
prohibiting all transactions with the Government of Syria, 
freezing regime assets, banning the export of services to and 
investment in Syria, and banning dealings in Syrian-origin 
petroleum.
    Each Executive order delegates to Treasury the authority to 
designate additional individuals and entities, and we have made 
full use of that authority to target regime insiders and to 
deny the regime the resources it needs to sustain its continued 
repression.
    Since the uprising began, we have designated more than 
three dozen individuals and entities. Our actions have targeted 
insiders and officials such as Assad advisor Buthaina Shaaban, 
Foreign Minister Walid al-Moallem, and Mohammed Hamsho, a 
prominent businessman and front man for corrupt officials. We 
have imposed sanctions on Syriatel, the largest mobile phone 
operator in Syria owned by Assad crony Rami Makhluf. We have 
designated Hamsho International Group. We have designated 
Syrian military intelligence, the Syrian National Security 
Bureau, and Syrian Air Force intelligence, all deeply complicit 
in the brutal use of violence against peaceful protesters.
    Demonstrating the full range of Syria's illicit conduct, we 
used preexisting authority to target the Commercial Bank of 
Syria for providing financial services to Syrian and North 
Korean entities that facilitate weapons of mass destruction 
proliferation.
    And we have used our authorities to highlight the role of 
Iran, designating the head and deputy head of the Islamic 
Revolutionary Guard's Qods Force and Iran's law enforcement 
forces for assisting the regime's brutality. Iran claims 
solidarity with the popular movement sweeping the Arab world 
today, but Iran's real policy is plain: to export to Syria the 
same repressive tactics employed by the Iranian Government 
against its own people.
    As we have steadily increased the pressure on the Assad 
regime, we have done so in close coordination with our allies 
in Europe and around the world. Like the United States, the EU 
has designated numerous regime officials and insiders, 
prohibited new investment in the Syrian energy sector, frozen 
the assets of the Commercial Bank of Syria, and most 
significant, implemented a ban on the importation of Syrian oil 
and gas to Europe.
    The impact of these coordinated, multilateral measures has 
been profound. Today, the Government of Syria finds it 
increasingly difficult to access the international financial 
system. Its ability to conduct trade in dollars has been 
severely constrained, and it has been deprived of its most 
significant source of revenue.
    The EU previously accounted for more than 90 percent of 
Syria's crude exports. As a result of the EU's ban, that market 
has effectively been eliminated, and despite Syria's aggressive 
efforts to find new markets, there appear at present to be few 
willing buyers. And while Iran may seek to provide financial 
assistance to Damascus, Iran itself is under pressure from 
wide-ranging international sanctions.
    In short, working in concert with our allies, we have used 
our sanctions tools to send Assad and his regime this clear 
message: your reprehensible actions have consequences. 
Continued repression of popular dissent will only deepen your 
isolation.
    As long as Assad maintains his illegitimate hold on power, 
we will continue to identify individuals and entities that are 
complicit in the Assad regime's abuses. We will expose, target, 
and disrupt the regime's sources of revenue and support, and we 
will continue to engage our partners around the world urging 
them to block Syria's access to alternative oil markets, asking 
governments and the private sector to join us in imposing 
aggressive and comprehensive measures against the Assad regime.
    I look forward to continuing our work with this committee, 
and I am happy to answer any questions you may have.
    [The prepared statement of Mr. Bronin follows:]

    Prepared Statement of Deputy Assistant Secretary Luke A. Bronin

    Chairman Casey, Ranking Member Risch, distinguished members of the 
subcommittee, thank you for the opportunity to appear before you. I 
look forward to discussing the Department of the Treasury's role in 
supporting the Obama administration's efforts to end the Assad regime's 
violent repression of the Syrian people. I am pleased to join Assistant 
Secretary of State Jeffrey Feltman today. Treasury values greatly our 
very close, collaborative relationship with the State Department and 
the State Department's Syria team.
    In my testimony today, I would like to review the role of financial 
sanctions in our Syria strategy; to assess, as far as possible, the 
current impact of multilateral sanctions; and to outline briefly our 
continuing priorities and next steps.
                         syria sanctions regime
    Since the Syrian uprising began in March 2011, President Obama has 
issued three Executive orders, each imposing new sanctions in response 
to the violence in Syria.
    On April 29, President Obama signed E.O. 13572, imposing sanctions 
on certain persons and providing for the imposition of sanctions on 
persons determined to be responsible for human rights abuses in Syria, 
including those related to repression. On May 18, in response to the 
continued escalation of violence against the Syrian people, the 
President signed E.O. 13573, sanctioning Syrian President Bashar al-
Assad and senior officials of Assad's government. Most recently, on 
August 17, the President issued E.O. 13582, which imposed a full 
blocking program on the Government of Syria, and followed with a call 
on Assad to step aside. E.O. 13582 prohibits all transactions between 
U.S. persons and the Government of Syria, bans the export of U.S. 
services to and new investment in Syria, and takes aim at a crucial 
revenue stream for the Syrian Government by banning the importation 
into the United States of, and transactions or dealings by U.S. persons 
in, Syrian-origin petroleum and petroleum products.
    These three new Executive orders rapidly and significantly expanded 
the tools we have available for responding to the crisis in Syria. Each 
Executive order delegates to Treasury the authority to designate 
additional individuals or entities. Working closely with our colleagues 
at the State Department, in the intelligence community, and throughout 
the U.S. Government, as well as with our counterparts in Europe, 
Canada, and elsewhere, we have made full use of our authorities to 
isolate the Assad regime and key regime supporters. To the fullest 
extent possible, we have worked to deny the regime the resources it 
needs to fund its continued repression of the Syrian people.
    Since the uprising began, we have designated more than three dozen 
individuals and entities pursuant to these new Executive orders. 
Treasury actions have targeted, among others, regime insiders and 
officials such as Buthaina Shaaban, Presidential and Media Advisor to 
President Assad; Walid al-Moallem, the Foreign Minister; the 
President's brother, Maher al-Assad; and Mohammed Hamsho, a prominent 
businessman and member of the Syrian Parliament who serves as a front 
man for many of the corrupt and illicit dealings of Syrian officials.
    In addition to the individuals targeted by our sanctions, we have 
also targeted key Syrian entities under these new Executive orders. To 
date, we have imposed sanctions on Syriatel, the largest mobile phone 
operator in Syria, which was designated for being controlled by Rami 
Makhluf, a powerful Syrian businessman and regime insider designated 
under E.O. 13460 in February 2008 for improperly benefiting from and 
aiding the public corruption of Syrian regime officials; Hamsho 
International Group, for being controlled by Muhammed Hamsho; Syrian 
Military Intelligence, which has used force against and arrested 
demonstrators participating in the unrest; Syrian National Security 
Bureau, which directed Syrian security forces to use extreme force 
against demonstrators; and Syrian Air Force Intelligence, which in late 
April 2011 fired tear gas and live ammunition to disperse crowds of 
demonstrators who took to the streets in Damascus and other cities, 
killing at least 43 people in 1 day.
    We have also used our authorities to highlight Iranian support for 
the Syrian regime, designating the Iranian Revolutionary Guards Corps-
Qods Force and Iran's Law Enforcement Forces for providing material 
support to the Syrian regime's violent response to peaceful protests. 
We also targeted Ismail Ahmadi Moghadam and Ahmad-Reza Radan, the top 
two officials of Iran's Law Enforcement Forces, and Qasem Soleimani, 
the head of the IRGC-Qods Force, under E.O. 13572. These actions 
demonstrate that, despite the Iranian Government's public rhetoric 
claiming solidarity with the popular movements sweeping the Arab world 
today, Iran's official policy is in fact to export the same brutal and 
repressive tactics employed by the Iranian Government in Tehran in 
2009.
    In addition to the actions taken under the three most recent Syria 
Executive orders, Treasury has used preexisting authorities to target 
the full spectrum of the Assad regime's illicit activities, including 
the proliferation of weapons of mass destruction. On August 10, we 
designated the Commercial Bank of Syria, a Syrian state-owned financial 
institution based in Damascus, for its provision of financial services 
to Syrian and North Korean entities previously sanctioned by the United 
States for facilitating WMD proliferation.
Coordination with allies
    As outlined thus far, we have been aggressive in the application of 
both targeted and broad-based measures against the Assad regime. Our 
actions have had an impact. The government blocking program, imposed 
under E.O. 13582, complicates Syrian oil sales globally by prohibiting 
dollar clearing for the Syrian Central Bank. The designation of the 
Commercial Bank of Syria has helped constrain the regime's primary 
facilitator of foreign transactions. Our targeted designations of 
regime insiders have boosted the morale of those courageously 
protesting against the regime.
    Nonetheless, it is important to acknowledge that, had we been 
acting alone, our actions would likely have had only a modest impact on 
the Syrian regime's ability to finance its campaign of violence. 
Economic relationships between the United States and Syria were limited 
even before the current crisis. The most significant aspect of our 
efforts to isolate the Assad regime is that we have not acted alone. We 
have pursued our strategy in the context of especially close 
coordination with international counterparts. Our steady escalation of 
pressure against the Assad regime and its supporters has been conceived 
of and implemented in concert with our allies.
    Like the United States, the EU has designated numerous regime 
officials and insiders, making it clear to both Syrian Government 
officials and the Syrian business community alike that association with 
Assad's regime carries a personal cost. On August 18, when President 
Obama called for Assad to step down, his call was echoed by our 
British, French, and German counterparts. The EU prohibited new 
investment in the Syrian energy sector and issued a ban on the export 
of Syrian bank notes and coins produced in the EU. Following the U.S. 
designation of the Commercial Bank of Syria for proliferation activity, 
the EU last month froze all Commercial Bank of Syria assets in Europe, 
citing the bank's critical role in facilitating financial transactions 
on behalf of the Syrian regime. Most significantly, the EU implemented 
a ban on the importation of Syrian oil and gas, depriving the Syrian 
Government of its largest and most important energy export market.
    Canada, too, has moved arm in arm with the United States and 
Europe. Japan, Switzerland, and Australia have also taken a stand with 
the international community. Japan announced an asset freeze for Bashar 
al-Assad and 20 connected individuals and entities, Switzerland has 
imposed measures similar to those of the EU, while Australia has 
implemented an arms embargo, a travel ban, and targeted financial 
measures against the Bashar al-Assad and regime insiders, as well as an 
arms embargo against Syria. We are engaging additional countries in 
Europe and Asia, urging them to deny Syria alternative markets for its 
crude oil exports or alternative ways to access the international 
financial system. We have and will continue to consult closely with our 
counterparts in Turkey, where the Turkish Government has made strong 
statements condemning the Syrian regime.
                    the impact of sanctions on syria
    As a result of this robust multilateral effort, the impact on the 
Assad regime has been profound. Since the implementation of U.S. and EU 
sanctions on the Syrian petroleum industry, the regime has struggled to 
find alternative markets for selling its heavy crude. Since the EU 
previously accounted for more than 90 percent of Syria's crude exports, 
the EU actions blocking the purchase of Syria-origin petroleum products 
and banning new investment in the Syrian petroleum industry have had a 
massive impact. Prior to the imposition of sanctions, the Assad regime 
generated one-third of its revenue from the oil sector. That source of 
revenue has been effectively been eliminated.
    Though Syrian officials initially indicated their belief that 
finding alternative markets for Syrian oil would be easy, recent 
statements from high-ranking government officials paint a different 
picture. The Syrian Oil Minister, speaking on state-owned television 
late last month, noted that the government had initially believed that 
they would be able to shift their crude oil exports to markets in the 
East immediately, but that that assumption had been wrong. There appear 
to be few buyers willing to import Syrian crude oil in the short term. 
In late September, the Syrian Government was forced to cut domestic oil 
production because it was unable to find buyers for its oil and lacked 
domestic storage for the newly extracted crude.
    In late September, in an apparent effort to preserve foreign 
currency reserves, the Syrian Government imposed a ban on the 
importation of a broad range of products, including household 
appliances and food items. The policy quickly backfired, as inflation 
spiked and the business elite of the country expressed their anger at 
the regime. Assad was forced to roll back the ban to maintain support 
from businessmen, an influential domestic constituency. The episode 
demonstrated the regime's increasing financial vulnerability and, 
importantly, focused popular anger on the regime.
    We have seen indications that Iran, one of Syria's last remaining 
supporters, appears to be taking steps to provide financial assistance 
to Damascus. However, given the pressure that Iran is under from wide-
ranging international sanctions, it is unlikely that Iran will be 
successful in helping mitigate the impact of financial sanctions on the 
Syrian regime.
    The U.S. and EU programs are only a few months old. We have yet to 
see the full impact of sanctions. However, we have sent to the Syrian 
Government, and to the Syrian businessmen who have chosen to ally 
themselves with the regime, this clear message: your reprehensible 
actions have consequences. Continued repression of popular dissent will 
only deepen your isolation.
                the continuing challenge and way forward
    As long as Assad maintains his illegitimate hold on power, Treasury 
will continue to work with our colleagues across the administration, 
including our Embassy in Damascus and our colleagues at the State 
Department, to identify individuals and entities that are complicit in 
the Assad regime's repression and deny them access to the United States 
and international financial systems through targeted sanctions. We will 
expose the sources of regime support. We will encourage our partners in 
the international community and private commercial institutions to take 
parallel actions.
    As financial pressure on the Assad regime increases, we know that 
Syria will look for ways to circumvent sanctions. We are cognizant of 
this reality and we are closely monitoring the situation to close down 
any such activity. We will continue to engage foreign governments and 
appropriate private sector counterparts to block Syrian Government 
efforts to develop workarounds. As part of our efforts, the Financial 
Crimes Enforcement Network (FinCEN) has already issued two advisories 
to U.S. financial institutions highlighting the risk of flight of 
proceeds of public corruption and regime assets, and possible attempts 
by the Commercial Bank of Syria to use nested accounts to maintain 
access to U.S. dollars. We are urging other financial sector regulators 
to issue similar guidance to their financial institutions.
    Most important, we will continue to engage our foreign partners, 
working closely with the State Department, in an effort to broaden and 
deepen the coalition taking action against Syria. Treasury officials 
engage regularly in jurisdictions that might serve as possible outlets 
for Syrian financial activity. We will caution our partners to remain 
vigilant, ask governments and regulators to issue appropriate guidance 
to their financial sectors, and encourage them to join us in our 
aggressive and comprehensive application of measures to increase the 
pressure on the Assad regime.
    As we continue to engage internationally, Treasury will also 
continue to pursue new and innovative ways to use our financial tools 
to advance U.S. national security objectives.
    I look forward to continuing our work with this subcommittee, and I 
look forward to your questions.

    Senator Casey. Thank you very much.
    We will start with one round of questioning.
    Mr. Feltman, I wanted to ask you, first of all, about the 
region and, in particular, maybe we can review a couple of 
countries in the region that can and will and should play a 
role in this. But let me start with Turkey.
    In your full statement, you mentioned some of the parts of 
the statements that Prime Minister Erdogan has made. You said 
in your statement that he has said he believes the opposition 
will be successful in ``their glorious'' resistance to the 
ongoing government crackdown. Certainly that is helpful when 
you have a neighbor saying that. And then what he has said in 
September in a visit to Libya, those who repress their own 
people in Syria will not survive, and he goes on from there.
    I guess I would ask you maybe a broad question and then 
more specifically. No. 1, on this idea of a contact group, how 
do you assess that and is there any effort to be undertaken by 
the State Department or the administration to move that 
forward--a contact group. That is the broad question.
    The second, more specific question is what about the role 
that Turkey has played and can play. What can we do to move 
them from being somewhat constructive so far to being even more 
helpful to put pressure on the regime and to help in the 
region? Does that make sense? I know that second question is 
not as specific as you may want it.
    Ambassador Feltman. Chairman, thanks. We welcome your 
proposal for a contact group for friends of the Syrian people. 
In fact, we are running with this idea. We are talking with 
others about it. I have a very senior colleague who is working 
on coordination with our European allies pretty much full-time, 
Fred Hoff. I am in touch with the Arabs.
    What we would like to do is to try to get the Arabs 
themselves to play a leadership role in this. One of Assad's 
propaganda tools is, oh, this is just an outside plot, and he 
needs to see that his brother Arabs are also participating in 
such a contact group. So we are exploring, we are pushing. We 
take the idea as a very positive one.
    Senator Casey. Let me just interject there. I think the 
fact that the Arab League has now made an attempt that he seems 
to be kind of thumbing his nose at--for lack of a better 
description--
I realize that a couple weeks ago or months ago there might 
have been a sequencing problem, but I think now that the Arab 
League has taken some action, I would hope that that would set 
the table for what could be a broader effort. But that is just 
an opinion I am interjecting.
    Ambassador Feltman. We agree with you, Senator Casey. The 
Arab League's committee that is dealing with the Syria issue 
headed by the Qatari Prime Minister Hamad bin Jassin includes 
several Arab States. They are meeting on Friday, a day before 
the Arab League is meeting on Saturday, to discuss Syria. So 
the committee on Friday will be discussing a number of options 
to present to the Ministers on Saturday, and we hope that--I 
mean, we are encouraging them to look at issues such as the 
Friends of Libya contact group. We would very much hope that 
given Assad's clear rejection of their proposal, that they will 
help us with the Security Council, things like that. So we 
agree with you that the Arab League is playing an important 
role and now is the time for the Arab League to actually take 
some action.
    On Turkey, you raise a really important issue. And it is 
worth remembering that one of, I think, the Assad family's 
foreign policy successes probably, from their own view, would 
be the rapprochement that first the father, then the son, were 
able to have with Turkey from 1998 moving forward. You know, if 
you looked at the Turkish-Syrian relationship a year ago, they 
were close friends. They had developed economic ties, political 
ties, diplomatic ties. It was a very positive relationship, I 
think, from the Syrian perspective. That is in tatters at this 
point. When you have statements from the Prime Minister of 
Turkey such as the ones that I quoted and you described, you 
can see what has happened.
    And Turkey has played an important role in a couple of 
areas. First, they have provided, basically, safe haven on 
Turkish soil for Syrian refugees. Turkey is hosting somewhere 
between 7,500 and 8,000 refugees, roughly, on Turkish soil now, 
protecting them from the brutality of the Assad regime that 
they fled.
    Second, Turkey is providing facilitation space for 
opposition to organize, for the opposition to talk to 
themselves. There is very little ability for these courageous 
activists inside Syria to get together because they clearly 
have no rights for peaceful protest. Their rights for speech, 
freedom of expression are not being at all respected. And so 
Turkey is providing some space for the opposition forces to 
meet to discuss, to try to lay out a vision. So it is an 
extremely important role that Turkey is playing.
    And Turkey has, in essence, put on a de facto arms embargo 
to make sure that arms are not flowing through Turkey back to 
the clique around Bashar al-Assad to use against his own 
people.
    So we think Turkey is playing an extremely positive, 
important role here.
    In the past, there was a lot of trade between the two 
countries, a lot of Turkish merchants going across the border 
to buy things in Syria to trade. That has all dried up just 
because of the instability in Syria, but we are in close 
contact with Turkey on all these issues.
    Senator Casey. I guess I would ask you as a followup to 
that question on Turkey, what would you hope that they could do 
in the next couple of weeks to be constructive.
    Ambassador Feltman. First of all, continue what they are 
doing because it is having a real impact. The opposition's 
ability to come together, because of the Turkish facilitation, 
is a tremendous accomplishment.
    Also, given the fact that the economic trade between the 
two countries is dropping, we would like to encourage them to 
join the European Union, to join Japan, to join Canada, to join 
us in formalizing some economic sanctions between Turkey and 
Syria.
    Senator Casey. That is very helpful.
    Senator Risch.
    Senator Risch. Thank you.
    Mr. Feltman, in your comments, I guess at least the hint 
was that we need to all buckle up and get ready for the long 
haul here. Is that a result of the assessment that the people 
are going to have a difficult time inasmuch as they are 
essentially unarmed in their attempt to overthrow the 
government?
    Ambassador Feltman. Well, part of it, Senator, is just my 
own humility. I have been NEA Assistant Secretary during this 
year, and I have learned not to predict things based on what 
has happened in the Arab world this year. So part of it is just 
based on my own awareness that predictions about what is going 
to happen in the Arab world do not always pan out.
    But part of it is this question of the unarmed protests 
that you mentioned. It is incredibly courageous what these 
Syrian opposition figures--the protesters--are doing every day. 
They are facing incredible brutality from a government that is 
basically a family-led mafia that has hijacked the state, and 
yet they come out every day, day in and day out. There are more 
demonstrations now than there were at the beginning of this. 
They are in every town, every city across Syria.
    But what Bashar al-Assad is trying to do is to turn this 
peaceful protest movement into an insurgency. He knows how to 
deal with violence. He just uses violence against violence. 
What confounds him is this phenomenon of protesters yelling 
``peaceful, peaceful,'' of shopkeepers closing their shops in 
solidarity with the protesters. That is what really puts Bashar 
al-Assad in a bind. And that is why we have been encouraging 
the opposition, despite the tremendous brutality they are 
facing, to keep to the peaceful principles to which they have 
subscribed.
    Right now, if the opposition were to turn into a largely 
armed movement, we think it would, first of all, frighten the 
minorities. It would frighten the minorities in Syria to 
believe that Bashar 
al-Assad's propaganda about chaos after him would come true. It 
would probably divide the international community.
    There is no consensus even among the opposition themselves 
on the question of arms. None of us question the desire by the 
Syrians to exercise in self-defense against the kind of 
brutality that they are facing, but we believe that right now 
their strength is in this peaceful protest, that they deny 
Bashar the ability to claim that he is really facing an armed 
insurrection because he is not. He is facing people who are 
demanding their legitimate rights through great courage.
    Senator Risch. How long can they hold on?
    Ambassador Feltman. I do not know. It goes back to my 
crystal ball thing. I do not know.
    But it is one of the reasons why I think that the Arab 
leaders have started taking such an active role because they do 
not want to see him destroy Syria. He is not going to remain. 
He cannot last. He cannot survive when you have the sort of 
isolation that Luke described, when you see the pariah he has 
become. But he can certainly cause a lot more deaths. He can 
certainly do a lot more damage before he has finally exited 
from the scene. The best thing for him to do right now would be 
to exit the scene, and that is what we are trying to find the 
way to do.
    Senator Risch. Thank you.
    Mr. Bronin, how would you compare the sanctions we have in 
place on Syria to the sanctions we have in place on Iran on a 
scale of 1 to 10? Compare the two so we can get a feel as to 
how those two match each other.
    Mr. Bronin. Senator, I think in both cases we have imposed 
comprehensive, broad measures to isolate the regimes.
    Senator Risch. Would you say they are comparable?
    Mr. Bronin. They are. I would say they are comparable.
    Senator Risch. And how about comparing those then to what 
we did in Libya when the chaos started there? Is it comparable 
to what we did there?
    Mr. Bronin. Also comparable. I would note that in Libya an 
important distinction is that the action we took followed 
action in the U.N. Security Council which meant that the action 
we took in Libya was accompanied by action globally, which 
amplified the impact in Libya dramatically, and obviously in 
both the cases of Syria and Iran, we are seeking to develop as 
broad a multilateral coalition to increase that pressure as we 
can.
    Senator Risch. What can you tell us about--and I am not 
asking for anything classified, obviously, but what can you 
tell us about your expectations? You know, we have all seen 
year-after-year sanctions, for instance, on Iran, and you know, 
a regime seems to be able to withstand a whole lot of pain in 
order to hang onto power. How do you assess where we are headed 
in Syria as far as the regime's ability to survive just as Iran 
is?
    Mr. Bronin. Like Assistant Secretary Feltman, I would 
hesitate to speculate on a specific timeline, but I would say 
that there are very clear indications that their financial 
resources are strained. I mean, they are in financial dire 
straights. Their revenues have been dramatically cut not only 
as a result of the action against their energy sector, but also 
the impact of the tourism industry in Syria as a result of the 
violence. They have seen a dramatic drop in revenue, and I 
think it is clear that they are having to draw down their 
foreign exchange reserves much more rapidly than they would 
like.
    Senator Risch. Thank you.
    Thank you, Senator Casey.
    Senator Casey. Thank you, Senator Risch.
    Senator Boxer.
    Senator Boxer. Thank you, Senator Casey. Senator Risch, 
thank you both for holding this important hearing. It really is 
a moment in time that we need to be heard, and I hope that some 
of our voices will be heard by the people of Syria who, as 
Senator Shaheen just mentioned to me, are risking their lives 
every single day to just keeping on this battle that they are 
in.
    In a show of his true colors, President Assad has 
responded, as you have said, with vicious force instead of 
respecting the voices of the Syrian people. The U.N. estimates 
that more than 3,500 people have already lost their lives and 
thousands more injured, imprisoned, forced to flee. The Syrian 
Government has ordered Syrian troops to fire on their own 
communities, orchestrated the torture of prisoners, some only 
children.
    And in August, President Obama rightfully said for the sake 
of the Syrian people, the time has come for President Assad to 
step aside. That was an extraordinarily clear message from our 
President.
    The Obama administration has also moved to implement a 
range of tough sanctions that we just discussed a moment ago. I 
had teamed up with Senator DeMint to call for these sanctions, 
prohibiting all transactions between Americans and the 
Government of Syria, banning United States services to, and new 
investments in, Syria, and banning the importation of Syrian 
petroleum. And after our move, the EU moved to ban import of 
petroleum, and since they purchase 90 percent of all Syrian 
oil, that is a big deal.
    Unfortunately, other members of the international community 
have utterly failed to stand up against President Assad's 
abuses. And I wanted to talk to you about one of those 
countries, Russia. It is my understanding that despite vigorous 
efforts, the U.S. Ambassador Rice was unable to secure a United 
Nations Security Council resolution condemning the Syrian 
Government's crackdown because of a Russian and a Chinese veto. 
And according to the news reports, Russia led the opposition, 
and our Susan Rice said that the United States was ``outraged'' 
and she called the vote ``a cheap rouse by those who would 
rather sell arms to the Syrian Government than stand with the 
Syrian people.''
    So I guess my question is, Would you speak, Mr. Feltman, 
Secretary Feltman, to Russia's opposition to any condemnation 
of the Assad regime. Is it that they want to sell weapons? Is 
it something more than that? Is there something more we can do? 
What is your take on it?
    Ambassador Feltman. Senator Boxer, thanks for the question. 
I am going to have to defer to the Bureau of European Affairs,
Assistant Secretary Phil Gordon, for better insights into 
Russia's motivations because it is out of my area.
    But what I can say is talking about Syria, what the 
Russians say is, first, that they want a peaceful solution. 
Fine. We want a peaceful solution. The Russians say we want the 
violence to stop. Fine. We want the violence to stop. The 
Syrian people want the violence to stop. So I would say, for 
the purpose of this argument, let us try to take the Russians 
at their word, that they are sincere for the purpose of this 
argument. Therefore, they should join us in allowing monitors, 
allowing media into the country because if they still pretend 
to believe Bashar al-Assad's lies that what he is doing is 
fighting bandits and terrorists, let the monitors in. The 
monitors can report that. The monitors can tell the world what 
is actually happening. The international media can say that. If 
there are bandits and terrorists, the monitors and media will 
show that.
    I do not believe that the Russians will be able to sustain 
their opposition to the Syrian people indefinitely.
    Senator Boxer. I hear you. And let me just say I think this 
is key. And, Mr. Chairman, I would hope that we could all work
 together to craft some kind of a message to the Russians 
because this is critical. They are taking the lead on blocking 
any type of resolution.
    Now, I have a second point I want to make here. According 
to an Amnesty International Report, the Syrian authorities--I 
am reading this from the report. ``The Syrian authorities have 
turned hospitals and medical staff into instruments of 
repression in the course of their efforts to crush the 
unprecedented mass protests and demonstrations. People wounded 
in protests or other incidents related to the uprising have 
been verbally abused and physically assaulted in state-run 
hospitals, including by medical staff, and in some cases denied 
medical care.''
    The report cites experiences from a number of wounded 
protesters, including one shooting victim who said that a 
doctor at a state-run hospital told him--this is a doctor--``I 
am not going to clean your wound.'' This is really hard to say. 
``I am waiting for your foot to rot so that we can cut it 
off.'' That is supposedly a quote from a doctor.
    It also cites a doctor who was forced to flee Syria after 
he reported a nurse was torturing a young protester. This is 
what the doctor said. ``I remember hearing shrieks of pain,'' 
said the doctor, ``so I walked toward the voice and I saw a 
male nurse hitting the boy hard on his injury and swearing at 
him as he poured antiseptic on the injured foot in an act that 
clearly intended to cause the boy additional pain.''
    So I have three quick questions I think you can answer.
    How much information are we receiving about the abuse and 
denial of care to injured protesters, including by medical 
staff?
    Second, are the International Committee of the Red Cross 
and the Syrian Arab Red Crescent currently able to provide care 
to the wounded?
    And then last, in light of this, why have we not been able 
to use this to turn around the policies of Russia and China?
    Ambassador Feltman. The information we get, Senator, is 
mixed. Because the media is not allowed, because there are 
restrictions put on our diplomats, we get a lot of information, 
but it could be very detailed in one area and very sketchy in 
other details. So it is a very mixed picture, but it does 
provide enough of a vision of what is happening in Syria to 
confirm some of these horrific stories that you are describing. 
I do not know the specific examples, but I am sure that Amnesty 
was able to get eyewitness reports because information is 
getting out despite the Syrian Government's best efforts to 
operate in darkness, to operate in the shadows.
    ICRC has had access in Syria. How effective they are able 
to be inside medical facilities I do not know because ICRC 
works very quietly. That is one of their goals.
    But I think that the stories that you are describing 
explain how it is that the Syrians can be so courageous that 
day after day they are going out and protesting because they 
know of family, of friends, of neighbors who have faced this 
kind of brutality, and they simply do not want to face it 
anymore. They are facing a regime that has hijacked the country 
with the sole purpose of just protecting the elite of that 
regime.
    Senator Boxer. Thank you very much. Again, I will not ask 
you to answer the last point, but I would hope we would take 
this information to the Russians and the Chinese. Thank you.
    Senator Casey. Thanks, Senator Boxer.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I would like to focus on some of the comments you have made 
on the international aspects of this as they pertain to Syria's 
neighbors. You pointed out that Turkey has changed its position 
and now harbors a segment of the Syrian opposition within its 
borders. But the Lebanese essentially would still appear to be 
very worried about the unrest spilling across the Syrian border 
and upsetting their own domestic situation. This is 
particularly true with regard to the Christians in Lebanon and 
others fearing the coming of a Sunni regime if the Alawites in 
Syria are not able to hang on.
    In addition to that, there is the problem that is faced by 
Israel, or at least as Israelis have themselves expressed, that 
Syria was never a friend, but it was a so-called stable 
antagonist that was not bound to attack Israel. However, some 
in Israel now worry that under pressure Assad or others might 
decide to attack in the hope of gaining some adherence from 
other anti-Israeli elements in the Middle East, thus creating 
an unstable situation on yet another front for Israel given the 
Arab Spring difficulties with Egypt and with others.
    Now, in the midst of all of this, the United States 
understandably is concentrating upon the human rights dilemmas 
of individuals who want their rights in the country. It has 
been noted, at least by some of our staff members, in the 
largest cities there have been very few demonstrations, but out 
in the hustings, there have been many more. And this leads once 
again to feelings about sectarian violence, particularly 
between the Alawites and the Sunnis.
    As you try to formulate policy, surely all of these things 
are on your mind and the Secretary's. On the one hand, you have 
each of us wanting you to do something to save people who are 
in the streets indicating they would like to have better civil 
rights, and we sympathize with that. On the other hand, it 
could very well be that as we demand the departure of Assad or 
the departure of Assad plus the people he is with, we tip the 
scales in this Alawite/Sunni business, and this leads to 
unintended consequences. After all, this was a Syrian problem. 
But given the Arab Spring and the current volatile situation in 
the Middle East, it has all sorts of other international 
implications.
    Now, under those circumstances, what is a policy that we 
should adopt that tries to bring a degree of stability to the 
situation even as we promote human rights and continue to 
espouse those things that we believe are most important? Or are 
we going to be a tipping force demanding action by the U.N. or 
demanding action through sanctions of various sorts? Although 
the economy of Syria appears to not be drying up, it has been 
deprived of much of its oil revenue. So we have already had an 
effect. How much of an effect do we want to have? And if we 
were successful and Assad left, what would we be left with at 
that point? What happens to all of the surrounding territories?
    Ambassador Feltman. Extremely important points, and you are 
right, that these play into all of our thinking on Syria policy 
all the time.
    I guess there are a couple of basic assumptions we have. 
What worries the Lebanese is instability next door and how that 
might spill over. What worries the Iraqis is the same thing. 
What worries the Israelis is another variation of the same 
thing. But what is causing the instability right now that they 
fear is what Bashar al-Assad is doing to his own people.
    And the President has been clear, as the chairman was 
earlier as well, that it is time for Bashar to step aside. 
Bashar is causing the instability that worries the neighbors. 
Bashar has gone past the tipping point. He is past the point of 
no return. The neighbors no longer look at him as the devil you 
know and so will accept him. They are recognizing with 
increasing vehemence that he is the cause of the instability 
that most worries them.
    Senator Lugar. Hypothetically let us say he does go 
tomorrow. Who steps in and then what do they do?
    Ambassador Feltman. That is one of the real challenges 
because the opposition in Syria is still divided. We think that 
more unites them than divides them because they are talking 
about the need for Assad to go, the need for a more democratic, 
secular future Syrians have equal rights under the law, but 
there still are big organizational divisions between the 
opposition people. We cannot pick out which opposition people 
are the right ones to lead the country.
    So one of the things that we are, in our discussions when 
we meet with opposition figures, be they within the Syrian 
National Council or outside the Syrian National Council, be 
they inside Syria or outside Syria, are talking to them about 
you have to be able to articulate a credible plan, a credible 
vision that is practical, that shows people who maybe do not 
like Assad, but are worried about what happens afterward that 
you have a plan, that it is practical, that it is 
implementable, that is positive, that is based on rule of law 
where the government governs with the consent of those 
governed.
    And I think they are starting to do this. There have been 
some vision papers put out, certain speeches given, but they 
still have a long way to go, to be frank, on this.
    Senator Lugar. Thank you. As this continues to play out, I 
am hopeful that we are taking into account the potential for 
chaos and the lack of people who have formulated what the new 
plans are or come together at this point.
    Ambassador Feltman. You are right to be concerned, Senator. 
But right now, the impending chaos is happening because of what 
Bashar is doing to his own people. So there needs to be an end 
to the violence and an opposition that is inclusive, that is 
able to articulate a practical, positive plan going forward.
    Senator Lugar. Thank you.
    Senator Casey. Thank you, Senator Lugar.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you to 
you and Senator Risch for holding the hearing.
    Mr. Feltman, I wanted to begin by commenting on your points 
about Ambassador Ford and the great work that he has done in 
Syria and commend him for that. I know all of us very much 
appreciate his courage and his working with the opposition 
figures and certainly hope he will be back there very soon.
    Can you talk about the current relationship between Iran 
and Syria and how Iran is playing into what is going on there 
right now? Are they supporting Assad and to what extent? And 
how does the violence in Syria affect their view of what is 
going on?
    Ambassador Feltman. Senator, it is a very interesting topic 
because the short answer is yes. Iran is definitely helping 
Bashar, giving him the tools by which he represses his own 
people, cracks down on them, et cetera. They are providing 
expertise, advice, what we would call technical assistance to 
do bad things. They are providing equipment by which he can 
monitor opposition activities on the Internet, all that sort of 
stuff. And it is one of the reasons why, as my colleague 
mentioned, the IRGC was sanctioned in one of the three 
Executive orders that the President has announced this year.
    At the same time, Iran is embarrassed. You start to see 
Iranian leaders, even people like Ahmadinejad, who talk about 
the need to end violence in Syria. They talk about the need for 
reform. Now, it is completely cynical on their part because 
they do just as bad of things to their own people, but it 
suggests to us that the Iranian leadership recognizes, A, that 
they have lost credibility across the Arab world because of 
their support of this brutal dictator and that, B, he might not 
survive. And they have got to start positioning themselves for 
the day after Bashar. So I think Iran is actually in a very 
interesting bind right now. They are trying to save him without 
losing what shreds of credibility they may still have in the 
Arab world while also trying to signal to the Syrian people 
that we know that he might not survive and we know that he 
should not bring those bad things to you.
    Senator Shaheen. And do we have any information about--is 
there any information about how the Iranian people feel about 
their government's support for Assad and what is happening 
there?
    Ambassador Feltman. I will have to plead ignorance, 
Senator. I am not really sure. I have not seen polling on that.
    But if I could use your question to pull up something else 
that is interesting, which is Arab polling. There has been 
enough Arab polling over the years to see a remarkable shift. A 
year or so ago, there was a big poll done, thousands of people, 
six different Arab countries, in which they were asked who is 
the Arab leader, not from your own country, outside your own 
country, who you most admire. Bashar al-Assad overwhelmingly 
came out on top. Now the same countries were polled, the same 
sort of data, and his numbers, shall we say, are rock bottom. 
The highest is something like in Morocco like 15 percent think 
he might survive. In Egypt, it is 14 percent. Everywhere else 
it is single digits. So his own credibility in the Arab world 
has suffered tremendously.
    And this has, of course, influenced the Arab leadership 
because Arab leaders have woken up that they need to be a 
little attentive to their popular opinion this year. And I 
think it helps explain why the Arab leaders are playing a much 
stronger role in Syria than they would have a year ago.
    Senator Shaheen. That does make sense. And given the Arab 
League's effort to try and reduce the violence in Syria, is 
there any belief that if the violence continues that the Arab 
League will actually take any direct action? Will they sanction 
Assad and the regime? Is there any further effort that we think 
they might undertake?
    Ambassador Feltman. I mentioned this a bit in my opening 
statement. Syria is considered to be a very important part of 
the Arab world for historic reasons, political reasons. I mean, 
we do not always like what Syria has done, but Syria is a 
heavyweight, shall we say, in the Arab world. And so I think 
the Arab leaders are trying to show that they can deal with a 
problem in their own back yard, that they can deal with this 
rather than have to turn to the outside world to solve 
everything. It would be an embarrassment for them if they are 
unable to do something to protect the Syrian people at this 
point.
    So when I am talking to the Arab Foreign Ministers--and the 
Secretary and the White House are engaged with the Arabs--there 
are a lot of ideas that the Arabs are saying, like we are 
talking about perhaps suspending their membership. Perhaps we, 
as the Arab League could, ask the United Nations Security 
Council for action. So there is recognition that Bashar has 
basically lied to them. That is positive. There is recognition 
quietly, not publicly, that his days are numbered.
    I look at the contrast between, again, a year ago where 
Qatar used to lend him a plane to fly around the world on state 
visits because we had sanctioned the spare parts--he could not 
have his own plane, and now Qatar is heading up the committee 
that is trying to find ways to take action in light of Bashar 
al-Assad's refusal to comply with their Arab League initiative.
    Now, I do not want to be naive here. The Arab League 
traditionally has lots of divisions inside it. So I do not know 
what they can actually produce, but they do recognize that in a 
very important way their own credibility with their own 
population is now on the line.
    Senator Shaheen. And to follow along with respect to 
Turkey--Mr. Bronin, in about 40 seconds that I have left--
Turkey obviously has made some strong statements condemning 
Assad and the violence in Syria. Are they prepared to undertake 
any sanctions against Assad, economic sanctions or others?
    Mr. Bronin. Well, Senator, as Secretary Feltman said, I 
think it is hard to overstate the significance of Turkey's 
break with Syria. They have, also as Secretary Feltman 
mentioned, already imposed what is, in essence, an arms 
embargo. We have seen remarks from Erdogan suggesting that they 
are considering additional measures possibly including 
financial sanctions. We would certainly welcome any such 
measures and also will engage with them to encourage them to do 
so.
    Senator Shaheen. Are we already engaging with Turkey to 
encourage them?
    Mr. Bronin. Yes.
    Senator Shaheen. Thank you.
    Senator Casey. Thank you, Senator Shaheen.
    Senator Rubio.
    Senator Rubio. Thank you.
    Secretary Feltman, I want to continue to explore the Iran 
aspect of it. Clearly their ambitions in the region are known 
and they are counter to not only our national interests, but 
quite the safety of the world. And I do not think that argument 
needs to be made any further.
    If you could elaborate a little bit more as to how 
important Syria is to Iran, how strategically important it is 
to their economy, to their military aspirations, the land 
bridge that it serves to the rest of the region, and how 
devastating it would be to them if, indeed, Syria were outside 
their sphere.
    Ambassador Feltman. Senator, thanks for the question.
    Syria is, I would say, essential to the extremely negative 
role that Iran has been able to play in the region. Take 
Hezbollah. The transit routes for the arms to Hezbollah are via 
Syria. The facilitation that Iran gives to Hezbollah to 
undermine the state of Lebanon, to put Israel at risk, to 
basically destabilize the region comes via Syria.
    Syria is basically Iran's only friend. Iran is Syria's best 
friend. In fact, it is one of Syria's few remaining friends. 
While we have talked earlier about how Russia and China vetoed 
the Security Council resolution, the Russians and Chinese do 
care about Arab attitudes. As I said earlier, I do not think 
that we have seen the end of the story on Russia and China. But 
if you look at Iran's friends or Syria's friends, they tend to 
be each other and then a few misguided or purchased Lebanese 
politicians.
    What is happening on the ground in Syria is quite 
interesting because as our Embassy--and I thank you all for the 
comments on Ambassador Ford which, of course, we certainly all 
endorse. Our Embassy reports--it also comes in through other 
channels--that these demonstrations across Syria have, among 
other demands, an anti-Hezbollah, anti-Iran flavor to them. The 
Syrian people know exactly who it is that is providing the 
assistance to their government to kill them, arrest them, and 
torture them. They know it is from Iran and from Hezbollah, 
which means that a change in government that comes about where 
you have a government in Syria that is governing by the consent 
of the people is not going to be the asset for Iran that Syria 
is today. It is in our strategic interest to see that this 
change takes place quickly.
    I will mention Iraq as well. There have been mixed press 
reports about what do the Iraqis think about what is happening 
in Syria right now, and they are concerned, as Senator Boxer 
said, about instability in the region. But Iraq suffered 
grievously from what this regime did to them. The Syrian regime 
facilitated, allowed the use of Syrian territory, Syrian 
airport for terrorists to get into Iraq and blow up thousands 
of Iraqis, hundreds of our own servicemen. I do not think the 
Iraqis have any illusions about Syria. It will also help Iraq 
to have a different Syria next door.
    Senator Rubio. Just in terms of the general policy goal of 
limiting and containing and defeating Iran's ambitions, violent 
ambitions, for the region and the world, the loss of the Assad 
regime would be a devastating blow to Iran. Is that accurate?
    Ambassador Feltman. Yes. I would--yes, yes. People talk 
about there could be another sort of Alawite or not Alawite but 
Assad in a palace coup inside, but I think that is very 
unlikely. So, yes, the high probability is that a government 
that comes in with the consent of the Syrian people will not be 
an asset of Iran.
    Senator Rubio. Now, one of the concerns that I think 
Senator Lugar raised and I think some have, watching the 
experiences in other parts of the region, is that if Assad's 
regime were to fall, they were to leave, they would be replaced 
by another form of radical government or one that would not 
respect, for example, religious minorities in the country. We 
know that there is concern about that.
    What progress, in terms of the resistance, whether it is 
the Syrian National Council or others, have they made in terms 
of--or what is the potential for that being ameliorated, in 
essence, lessened?
    Ambassador Feltman. You know, it is a concern of everyone, 
including the Syrian opposition themselves. The slogan of the 
Syrian opposition is ``Syria is one people.'' They are trying 
to show and practice that they recognize that the Syrian 
national identity is composed of many, many diverse sects, 
ethnic groups, et cetera. And in the various opposition groups, 
including the Syrian National Council we have talked about, you 
do see Alawites, Christians, Kurds, Druze, that are 
participating. But the majority of this is still a Sunni-heavy 
movement. In part, the country itself is heavily Sunni.
    But it goes back to what we were talking about earlier, 
that the opposition has started to articulate and needs to 
continue to articulate why it is that Bashar's predictions of 
what will happen after he leaves are wrong, that it will not be 
chaos, that the minorities, members of the armed services, 
members of the judiciary, that all parts of Syria will have a 
proper role to play, will have their rights respected in the 
future of Syria. The burden is on the Syrian opposition to be 
talking to the same people.
    I do not think that based on our own conversations with 
Syrian minority groups, that there are any illusions about 
Bashar or any love for Bashar. They may have once seen him as 
the force of civility. They now recognize that he is driving 
the country to ruin. But they are worried about what happens 
afterward and that is what the opposition needs to work on.
    Senator Rubio. My last question, Mr. Bronin, is on 
sanctions. I have read the full menu of sanctions that we have 
placed and that others have placed around the world, the 
European Community, Canada. Japan I think recently did so as 
well, others.
    I have been aware for some time now there is a flight from 
Damascus to Caracas that takes place about every 2 weeks or so. 
Is there any evidence of nations in the Western Hemisphere, 
Venezuela in particular, but others providing assistance to 
evading any of these sanctions?
    Mr. Bronin. Senator, thanks for the question.
    I cannot speak to any specific examples of financial 
support. Clearly the Assad regime is looking around the world 
for support and also for alternative markets. I will say just 
as a general matter they have not found much success to date.
    Senator Rubio. The testimony is that as of now, we have not 
found any willing, open participants in efforts to undermine 
our efforts or other nations' efforts to aid them in 
circumventing--
obviously, except for Iran--circumventing these sanctions.
    Mr. Bronin. Again, I cannot speak directly to any specific 
forms of financial support.
    With respect to finding markets that might replace what 
they have lost when they lost the European oil market, that is 
correct. They have not found anything that would even begin to 
replace what they have lost.
    Senator Rubio. OK, thank you.
    Senator Casey. Thank you, Senator Rubio.
    Senator Durbin.
    Senator Durbin. First, Mr. Chairman, I want to thank you 
and the ranking member for allowing me to attend this 
subcommittee, which I may not be a formal member of, but have 
followed closely. And thank you for your leadership.
    And I thank the witnesses for being here.
    It was about 2 months ago that I had a meeting with a large 
group of Muslim Americans in Chicago of Syrian descent, and 
naturally they are following this very closely and are very 
concerned about it. And they asked several questions which I 
will ask.
    First, Mr. Bronin, whether or not the sanctions which we 
have imposed have gone far enough. And several things that they 
asked about I told them I would follow through with, and that 
is whether or not we are, for example, targeting Lebanese banks 
involved in Syria and whether or not we have expanded our 
sanctions regime where we are currently targeting oil exports 
to include other elements of the oil and energy sector of 
exploration and production and transport.
    Mr. Bronin. Thanks very much, Senator. An important 
question.
    To the question of the Lebanese financial sector, we have 
designated one Lebanese financial institution. It is a 
subsidiary of the Commercial Bank of Syria, the Syrian-Lebanese 
Commercial Bank.
    We are also regularly engaged with our counterparts in 
Lebanon to stress the importance of remaining vigilant and not 
allowing their financial system to be exploited by the regime 
or regime insiders. I think, in particular, after an action 
that we took earlier this year in making a PATRIOT Act section 
311 finding against the Lebanese Canadian Bank in Beirut, the 
Lebanese are very alive to the risks that they run if they 
allow their financial system to be exploited. But again, we 
continue to engage very regularly with Lebanese counterparts.
    Senator Durbin. And what about expanding the sanctions 
pursuant to the suggestion of Senator Gillibrand, which I have 
joined in, to go beyond oil exports into other aspects of the 
oil and energy sector?
    Mr. Bronin. Our sanctions currently already do prohibit and 
investment in the Syrian oil sector. They prohibit all 
transactions between United States persons and the Government 
of Syria, and the Europeans have taken a similar action as 
well.
    Senator Durbin. That is good to know.
    Mr. Feltman, a question was asked as to why we are not 
pursuing at the U.N. Security Council the referral of Mr. Assad 
to the International Criminal Court. Can you tell me?
    Ambassador Feltman. Senator, Ambassador Rice and her team 
in New York are extremely active looking at how we can use the 
U.N. system in the best way to, first of all, raise attention 
to what is actually happening in Syria and then to try to find 
ways to stop the violence. We are looking for support with 
Russia and China to see that we can get a Security Council 
resolution on Syria. Right now, we are also working with 
European and other partners on getting a General Assembly 
resolution on Syria passed through the third committee that 
would also call for the types of human rights monitors that we 
think would give some protection to the Syrian people. There 
have been two special sessions, that we have helped lead, of 
the U.N. Human Rights Council. So we are looking at all the 
ways that the U.N. system could help us achieve that goal of 
stopping violence and moving toward a democratic transition in 
Syria.
    Senator Durbin. Mr. Feltman, I applaud what the 
administration has done through Ambassador Rice, and I think 
calling for the vote in early October in the United Nations, 
even though it failed, it at least brought the issue to the 
forefront and forced nations to stand up and vote. And the 
question I am asking, since the Arab League has intervened and 
that effort has clearly failed and we have pronounced that, why 
are we not following up again at the United Nations Security 
Council either with a similar resolution or specifically 
directing the efforts of the International Criminal Court 
toward Mr. Assad.
    Ambassador Feltman. On the International Criminal Court, 
since we are not members, I would look for the lead of others.
    But on the Security Council, this is an option that we are 
pursuing. We are looking for the right time. We are hoping that 
something comes out of the Arab League on Saturday that will 
help us with those on the Security Council who did not let the 
resolution pass the last time. Definitely this is a matter that 
the U.N. Security Council should be dealing with, and we would 
hope that Russia and China, in looking at how the Assad clique 
has just refused all attempts of mediation from others, would 
now realize it is time for the Security Council to act.
    Senator Durbin. I followed through a little bit on this 
after thinking about it and working with my staff on the 
question of the U.N. Security Council. And one can certainly 
come up with a rationale for the Russian position that may have 
something to do with arms sales, a rationale for the Chinese 
position which is fairly consistent with their foreign policy. 
But I have really struggled with Brazil, India, and South 
Africa.
    And I asked the Ambassador, Mrs. Rao, to come in my office 
and talk about the Indian position on this. And she said to me 
what I think others have said, and I would like you to comment 
on it. She believes there is evidence--at least she told me 
there is evidence--that the opposition in Syria is armed and 
violent. And I have not heard that, not from any credible 
source. Have you?
    Ambassador Feltman. There are increasing incidents of the 
opposition using arms. Some of this is in self-defense--I think 
any of us would understand. For the large part, the opposition 
movement is still peaceful. What Bashar wants is for the 
opposition movement to turn entirely violent so he can say to 
the world, look, it really is an insurgency. He does not know 
how to deal with peaceful protesters.
    First of all, thank you for seeing the Indian Ambassador. 
That is a welcome initiative because we have been talking with 
the Indians and others as well.
    But what I would say to her is what the U.N. Security 
Council is trying to do, what the Arab League is trying to do, 
what the U.N. Human Rights Council is trying to do is to get 
monitors in the country. If there are terrorists in the 
country, they will either stop attacking because they do not 
want to reveal their action or they will be revealed by these 
monitors. We think it would put a check on the brutality that 
the Assad regime has inflicted on its own people. But they can 
use their own arguments to get themselves to the point of 
supporting a Security Council resolution because if they truly 
believe what she told you, if she truly believes that, she 
should not be frightened to have monitors there.
    Senator Durbin. I think that is a constructive suggestion.
    Mr. Chairman, I really hope other colleagues on the 
committee can join me in inviting the ambassadors from these 
countries that are stymieing the efforts of the United Nations 
Security Council to come and explain to us. Many of these are 
our friends, historically our friends, South Africa, for 
example, and India for that matter. And it would seem to me to 
be at least valuable to note that we see their opposition and 
would like some explanation.
    Thank you, Mr. Chairman. Thank you, witnesses.
    Senator Casey. Thank you, Senator Durbin.
    We will go to a second round. We may not all have 
questions, but I wanted to raise at least two or three more 
points.
    Mr. Bronin, I wanted to raise with you--and today we 
probably do not have enough time to cover all of this, but I 
wanted to raise a question about an article that appeared in 
the Wall Street Journal. It is dated October 29 of this year. 
The title of the article is ``U.S. Firm Acknowledges Syria Uses 
Its Gear to Block Web.'' I will just read two pertinent parts, 
really the first two paragraphs, short paragraphs.
    ``A U.S. company that makes Internet blocking gear 
acknowledges that Syria has been using at least 13 of its 
devices to censor Web activity there, meaning Syria, an 
admission that comes as the Syrian Government cracks down on 
its citizens and silences their online activities.
    ``Blue Coat Systems, Incorporated of Sunnyvale, CA, says it 
shipped the Internet, `filtering,' devices to Dubai late last 
year believing they were destined for a department of the Iraqi 
Government. However, the devices which can block Web sites or 
record when people visit them made their way to Syria, a 
country subject to strict U.S. trade embargos.''
    And I will just read one more part. ``Blue Coat told the 
Wall Street Journal the appliances were transmitting automatic 
status messages back to the company as the devices censored the 
Syrian Web. Blue Coat says it does not monitor where such 
`heartbeat' messages originate from.'' And it goes on from 
there.
    I know that you and your team are familiar with this.
    I guess the basic question I have--and I know I am putting 
you on the spot, but if you have an answer, we would want to 
hear it today. Has this company, Blue Coat Systems, Incorp., 
violated the U.S. trade embargo. That is the first question.
    Mr. Bronin. Senator, with respect to--our export control 
regime is administered by the Commerce Department and I would 
have to refer you to the Commerce Department for specifics on 
this particular instance, unless Secretary Feltman has anything 
he would like to add.
    Senator Casey. Secretary Feltman, I do not know if you have 
either an answer or a comment.
    Ambassador Feltman. Reinforcing what Luke said, this is 
administered by the Department of Commerce. The Department of 
Commerce is looking into this very specific case because there 
was no license issued to send this stuff to Syria. Since the 
export controls were put in place in 2004, any such item like 
this that would be exported to Syria requires a case-by-case 
examination and an export license. There were no export 
licenses issued for this, and the Department of Commerce is 
investigating it. I would defer to them on the state of the 
investigation.
    Senator Casey. Just for the record just so that we are 
clear, I would suggest to the administration to make sure that 
an answer is forthcoming, whether it comes from the Commerce 
Department or from whatever agency the answer would emanate 
because part of our responsibility here is not simply to point 
fingers at other countries and impose sanctions that are kind 
of far away. We got to make sure that our Government, our 
companies are doing the right thing here as it relates to 
Syria.
    I wanted to ask a broader question that has been referred 
to by a number of us, but I wanted to try to get it in a 
summary form before we conclude about sanctions. We know and I 
know that both of you have spoken to the issue of sanctions. In 
fact, there was a recent CRS report that outlined--and I am 
looking at a report that is rather recent, but the last two 
pages of this report--this is a report dated November the 4th. 
But they set forth a table where they listed all of the 
sanctions and the individuals sanctioned.
    I guess I would ask you two questions. No. 1 is how would 
you assess the success or impact of sanctions to date--both 
U.S. and other sanctions; EU and others. And No. 2, what if 
anything can you tell us that is forthcoming by way of 
sanctions? I have some ideas about whom should be sanctioned, 
but I want to hear from you first about the assessment of where 
we are and, second, where we could be headed with additional 
sanctions. And it is really for both our witnesses.
    Mr. Bronin. Thanks very much, Senator.
    First, with respect to the impact that sanctions are 
having, I would note that Syria has for a long time been among 
the more sanctioned countries, and so the ties between the 
Syrian and the United States financial system were limited. Our 
actions have been comprehensive and aggressive, but there is 
only so much we can do unilaterally. The real significance of 
what has been done is that we have done it in concert with the 
Europeans in particular, and the European actions have really 
been dramatic. The impact has been profound.
    Senator Casey. Mostly because of oil?
    Mr. Bronin. Mostly because of oil. Their actions go beyond 
oil. And you know, their actions like ours--I do not want to 
diminish the importance of the symbolic nature of the actions 
as well--by highlighting the activity of those complicit in the 
human rights abuses and also by highlighting the Syrian 
business community who support the Assad regime--you know, we 
are sending an important message both to the protesters on the 
streets in Syria that we stand by them, and I think we are 
sending a message to the Syrian business community, an 
important constituency, that there are severe personal costs to 
associating one's self too closely with Assad.
    Senator Casey. And just a quick followup. Would it be 
accurate to say--and I guess I am getting this from a couple of 
places, including your testimony. Let me rephrase the question. 
You say in your testimony on page 4, prior to the imposition of 
sanctions, the Assad regime generated one-third of its 
revenue--that is total revenue--from the oil sector and that 
has been effectively eliminated. Is that correct?
    Mr. Bronin. That is correct, Senator.
    Senator Casey. Mr. Feltman.
    Ambassador Feltman. Yes, just quickly. It is worth noting 
the contrast between today and not too far in the distant past, 
which is that only recently Europe was looking at an 
association agreement with Syria. Europe was in an advanced 
state of negotiations with Syria about having an association 
agreement with trade and all sorts of other benefits that would 
have accrued to the Syrians. Today they have sanctioned Syria. 
They have sanctioned two of the primary Syrian banks. They have 
cut off the oil revenues, which we have talked about, but that 
is over $4 billion a year in loss, and the Syrians have not 
been able to find any other customers. So it is as if, with the 
other subjects we have talked about--it is worth remembering 
where we were not very long ago and where we are today, which 
helps gives us the sense of inevitability that basically Bashar 
is finished.
    Senator Casey. What can you tell me--maybe you do not know 
the answer to this. It is a tough one to answer I guess. 
Sanctions as it relates to Turkey--why do you not think they 
have taken that step and can they, will they?
    Ambassador Feltman. I do not know. All of us have been in 
discussions with the Turkish officials, as have, of course, our 
bosses at the Cabinet level and the White House, with the Turks 
because the Turks have played an important role. The Turks have 
played the essential role in terms of providing space for the 
opposition. The effective arms embargo that they have put in 
place has had an impact on the regime's ability. And in 
practice, much of the economic ties between the two countries 
has already dried up, just as a matter of course.
    But as I said earlier, we would like to see them take the 
additional step of actually putting some legal sanctions in 
place that parallel the sanctions that the EU, the United 
States, Japan, and Canada have done.
    Senator Casey. I do not know if any of our colleagues have 
more questions, but I just have one comment. I was asking our 
staff not too long ago when you consider the number of people 
slaughtered here, by one estimate now more than 3,500, if you 
do the math in terms of population proportionally, it is the 
equivalent of more than 43,000 Americans being killed by our 
Government. I know it is a different world. It is not 
necessarily comparable in terms of the way we have 
traditionally responded to our own challenges here. But it is 
hard to comprehend that that kind of a slaughter is taking 
place, and it does not get near enough attention in this town. 
So we are going to keep at it.
    Unless Ranking Member Risch or Senator Lugar have any other 
questions--Senator Lugar?
    Senator Lugar. Mr. Chairman, I would like to ask about the 
food situation in Syria. The reason I ask is that over in the 
Agriculture Committee from time to time we get reports about 
the changes in exports or imports in Egypt, Tunisia, and Libya 
after the Arab Spring. Without going into all the details, the 
facts are that the expense of importing grains that were a part 
of the diets of those countries has increased significantly. 
Beyond that, the capacity to pay and to exchange moneys, given 
problems in the banking system, have created a situation in 
which in these countries there may be as much as a 40-percent 
decline in the amount of food being consumed by the people. 
That is a very large change. And some have pointed out in the 
past that leaders in these countries retain their power through 
so-called food subsidies, in other words, if people were very 
unhappy in the hustings, somehow they were pacified by money 
coming out that they use for food.
    What I am not clear about is how this applies to Syria, 
because I really have not heard anything on any nutrition and 
food supply impacts resulting from the sanctions or the loss of 
export money or exchange. Has there been an impact there?
    Ambassador Feltman. Senator, in terms of sanctions, of 
course, even in our case, food and medicine are exempted from 
sanctions. That is really the only examples of exemption from 
sanctions. And we do not have reports of sanctions themselves 
having an impact directly on the food supply. In fact, the only 
reports we have had of shortages of food in Syria so far are 
places that are sort of under siege, places where it has been 
hard to get food in because the army and the security services 
are occupying the outskirts. But we have not had reports of 
widespread malnutrition, widespread food shortages in Syria.
    But you touch on a very important point, which is the 
subsidy question. Even before this all started, Syria's economy 
was heavily subsidized, mismanaged one would say. They have 
suddenly had a drop of revenue from the oil, from the tourism 
revenues, from trade with Turkey at the same time that Bashar 
and his clique are trying to maintain some semblance of control 
and some semblance of loyalty through the subsidy program.
    You see signs--I mean, I will defer to the experts at 
Treasury--of a little bit of a panic among the upper echelons 
of this elite system. For example, they put a ban on the import 
of luxury goods into Syria in order to try to save hard 
currency probably to help buy the foodstuffs and help the 
subsidy program going for the general population. But they had 
to reverse because there was such popular outcry against this. 
So you are seeing cracks in the system that suggest that they 
really are concerned about their ability to keep the current 
subsidy program going.
    Senator Lugar. I just raise the question because many feel 
that the problems for President Mubarak really came down to 
this. There were the young people in Tahrir Square. There were 
people demanding their rights. But Egypt is a country of 80 
million people, and the millions that were usually getting the 
subsidies from the Mubarak government were not getting the 
subsidies. And so as a result, there was a whole pattern there 
in terms of countrywide revolt which was maybe a major factor 
in finally changing the government.
    Mr. Bronin. I have not much to add to what Secretary 
Feltman said. I would note that the ban on imports that the 
Syrian Government posed at the end of September I think was 
significant for a couple of reasons. I think it was imposed in 
large part to protect their foreign exchange reserves, which is 
a demonstration that the actions we have taken together have 
had a significant impact. And importantly, I think the fact 
that the ban was imposed and then subsequently revoked is just 
one example of many examples of sort of erratic, inconsistent 
policymaking by the Syrian regime which has really focused the 
anger and dissatisfaction of the Syrian people on the Syrian 
regime rather than on the international community.
    Senator Casey. I want to thank both of our witnesses.
    Let me just say for the record before we go that the record 
will be kept open for 1 week for members of the committee.
    Second, we have received testimony for the record from the 
following organizations. They are three: No. 1, the Foundation 
for the Defense of Democracy; No. 2, the Washington Institute 
for Near East Policy; and No. 3, Human Rights Watch. So those 
will be made part of the record as well.
    Senator Casey. So if there is nothing further, we are 
adjourned. We want to thank our witnesses and this hearing is 
adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Prepared Statement of Mark Dubowitz, Esq., Executive Director, 
                 Foundation for Defense of Democracies

    Thank you for the opportunity to submit written testimony to the 
Senate Foreign Relations Subcommittee on Near Eastern and South Central 
Asian Affairs.
    FDD formed a Syria Working Group comprised of scholars, experts, 
former government officials, Syrian and Middle Eastern dissidents and 
others to help inform the policy discussion surrounding developments in 
Syria and supporting the Syrian people, who have suffered under a 
repressive, violent, and radical regime for more than three decades. We 
believe they deserve the chance to reject oppression, change their 
government, and build a nation based on civil rights and human dignity. 
We also believe that the current government in Syria does not have the 
will or ability to lead a transition to democracy and must instead step 
aside. Finally, we believe that the deplorable human rights conditions 
in Syria demand international attention. Those outside of Syria must 
hold the regime accountable for the violence committed against its 
population and support those dissidents in Syria standing up for their 
inalienable rights.
    The Syria Working Group produced a discussion paper looking toward 
a post-Assad era. It contains policy recommendations for consideration 
by the administration and like-minded nations to further assist the 
anti-regime Syrian opposition.
    I am grateful for the opportunity to submit this discussion paper 
as my testimony before the committee. I note that this document was 
jointly produced by my colleagues at FDD including Reuel Marc Gerecht, 
John Hannah, Tony Badran and Ammar Abdulhamid, as well as my colleagues 
from Foreign Policy Initiative which include Jamie Fly and Robert 
Zarate.

                            DISCUSSION PAPER

   Toward a Post-Assad Syria: Options for the United States and Like-
   Minded Nations to Further Assist the Anti-Regime Syrian Opposition

    ``Despite graphic media coverage, American policymakers, 
journalists, and citizens are extremely slow to muster the imagination 
needed to reckon with evil. Ahead of the killings, they assume rational 
actors will not inflict seemingly gratuitous violence. They trust in 
good-faith negotiations and traditional diplomacy. Once the killings 
start, they assume that civilians who keep their heads down will be 
left alone. They urge cease-fire and donate humanitarian aid.''--
Samantha Power, now Special Assistant to the President and Senior 
Director for Multilateral Affairs in the National Security Council, in 
``A Problem from Hell: America and the Age of Genocide'' (Harper 
Perennial, 2003).

    With a long history of exporting terrorism beyond its borders, the 
Syrian government is now waging a campaign of systematic, internal 
terror against its own people. Officials at the United Nations 
conservatively estimated in November 2011 that President Bashar al-
Assad's security forces and pro-government militias have killed over 
3,500 civilians since the country's anti-regime protests started in 
March 2011. In addition, the Assad regime has jailed at least 30,000 
Syrians, with human rights groups reporting that nearly 100 detainees 
have died in captivity.
    The international community, however, remains unable to muster a 
collective response, as recent proceedings in the U.N. Security Council 
illustrated. This is unfortunately due in large part to the way in 
which the United States and its allies secured Security Council support 
for NATO's intervention in Libya. On October 4, 2011, Russia and China 
vetoed a resolution that would have condemned the Syrian government for 
its egregious human rights abuses, and demanded an end to its lethal 
crackdown on the opposition. Months earlier, Russian and Chinese 
diplomats similarly shielded the Assad regime from efforts by the 
United States and Western governments to get the Security Council to 
consider a resolution that would have censured Syria's controversial 
nuclear program.
    Given the deadlock in the international community, this memorandum 
examines U.S. options for responding, either individually or in concert 
with other nations, to the Assad regime's relentless murder of Syrian 
civilians.
    The current Syrian government is a dangerous enemy of the United 
States. Over the past decade, the Assad regime has supported terrorist 
groups across the Middle East, destabilized its neighbors, pursued a 
secret nuclear program with North Korean assistance, aided foreign 
militants that have killed American and allied soldiers in Iraq, and 
served as a key regional ally to the Middle East's most dangerous 
country, Iran. The United States certainly has a moral obligation to 
work with others to try and halt the continuing humanitarian crisis in 
Syria. But it also has a powerful strategic interest in seeing not only 
the collapse of the Assad regime, but also the emergence of a post-
Assad Syria with moderate, representative government that respects 
human rights, upholds the rule of law, promotes stability in the Middle 
East, and dramatically weakens the region's Iranian-led anti-American 
bloc.
    This memo proceeds in three parts. Part one summarizes the response 
of various foreign governments to the Assad regime's mass murder of 
Syrian civilians and other human rights abuses. Part two highlights 
statements by Syrian opposition groups calling for humanitarian 
intervention in Syria. And part three offers a discussion of options 
for the United States to respond to the Assad regime.
            i. foreign governments condemn the assad regime
    Inspired by ``Arab Spring'' revolutions in Tunisia, Egypt, and 
Libya, Syrian citizens first began peaceful protests against the 
authoritarian government of Bashar al-Assad in mid-March 2011. But what 
first began as a small set of disparate, anti-regime assemblies 
throughout the country quickly turned into a larger movement that has 
increasingly begun to transcend class and ethnicities, and even gained 
the support of a growing cadre of Syrian military defectors.
    By mid-April 2011, the Assad regime sought to quell pro-democracy 
demonstrations by promising to end emergency rule, enact political 
reforms, and release detainees arrested during the prior month's 
protests. Predictably, however, the regime's promises proved empty. On 
April 22, 2011--one day after emergency rule was supposedly lifted by 
the regime--security forces and pro-regime gunmen killed nearly 100 
protestors across the country. One day later, government forces killed 
at least 12 mourners at the funeral of pro-democracy protestors in the 
city of Homs. Over the ensuing months, the Assad regime's systematic 
targeting of civilians continued. As of October 2011, the U.N. 
officials estimate that the Assad regime has killed in excess of 3,000 
Syrian civilians and detained at least 30,000 more since the beginning 
of the protests. However, the Syrian government has imposed a media 
blackout that has severely constrained the flow of information, so the 
actual death toll is likely much higher.
    The Assad regime's murderous suppression of Syrian civilians has 
triggered strong condemnation from countries in the Middle East. For 
example, Turkish Prime Minister Recep Tayyip Erdogan described the 
regime's attacks on civilians as ``savagery'' in June 2011. And the 
Gulf Cooperation Council (GCC) called or serious political reforms in 
Syria and ``an immediate end to the killing machine'' in September 
2011.
    Broader international condemnation has also been harsh. For 
example, French Foreign Minister Alain Juppe charged that ``[t]he 
Syrian regime has committed crimes against humanity'' on August 8, 
2011. Shortly thereafter, the U.N. High Commission for Human Rights 
concluded in a report that the Assad regime was responsible for 
ordering ``human rights abuses, including summary executions, arbitrary 
arrests and torture.'' In one passage, the report stated:

        . . . there were reports that on 1 May in Dar'a, about twenty-
        six men were blindfolded and summarily executed by gunshots at 
        the football stadium, which had been transformed into the 
        security forces headquarters for that area. Executions also 
        occurred during the sieges of cities, and during house-to-house 
        searches.

    In addition, the U.N. High Commissioner for Human Rights, 
Navanethem Pillay, accused the Syrian government of perpetrating 
``egregious violations of human rights'' in response to the pro-
democracy protests:

          These include summary executions, excessive use of force in 
        quelling peaceful protests, arbitrary detentions, torture and 
        ill-treatment, violations of the rights to freedom of assembly, 
        expression, association and movement, and violations of the 
        rights to food and health, including medical treatment to 
        injured persons.

    Although the United States repeatedly condemned the Syrian 
government for these atrocities, it did not initially call for Assad's 
removal. After much internal debate within the Executive Branch, 
however, U.S. policy changed on August 18, 2011, when President Obama 
demanded in a statement that Assad step down:

          The future of Syria must be determined by its people, but 
        President Bashar al-Assad is standing in their way. His calls 
        for dialogue and reform have rung hollow while he is 
        imprisoning, torturing, and slaughtering his own people. We 
        have consistently said that President Assad must lead a 
        democratic transition or get out of the way. He has not led. 
        For the sake of the Syrian people, the time has come for 
        President Assad to step aside.

    Reiterating the President's new posture towards the Assad regime, 
Secretary of State Hillary Clinton said on September 2, 2011:

          The violence must stop, and [Assad] needs to step aside. 
        Syria must be allowed to move forward. Those who have joined us 
        in this call must now translate our rhetoric into concrete 
        actions to escalate the pressure on Assad and those around him, 
        including strong new sanctions targeting Syria's energy sector 
        to deny the regime the revenues that fund its campaign of 
        violence.

    Nonetheless, the Assad regime's assaults on the Syrian protest 
movement continued, even into the Muslim holy month of Ramadan. In 
response, President Obama said at a speech before the U.N. General 
Assembly on September 21, 2011:

          As we meet here today, men and women and children are being 
        tortured, detained and murdered by the Syrian regime. Thousands 
        have been killed, many during the holy time of Ramadan. 
        Thousands more have poured across Syria's borders. The Syrian 
        people have shown dignity and courage in their pursuit of 
        justice--protesting peacefully, standing silently in the 
        streets, dying for the same values that this institution is 
        supposed to stand for. And the question for us is clear: Will 
        we [at the United Nations] stand with the Syrian people, or 
        with their oppressors?

    Despite U.S. calls for the United Nations to act, however, the 
Security Council failed in a vote to pass a resolution on Syria on 
October 4, 2011, due to Russian and Chinese vetoes. After the vote, the 
U.S. Ambassador to the United Nations, Susan Rice, said:

        . . . the United States is outraged that this Council has 
        utterly failed to address an urgent moral challenge and a 
        growing threat to regional peace and security. . . . For more 
        than six months, the Assad regime has deliberately unleashed 
        violence, torture, and persecution against peaceful protesters, 
        human rights defenders, and their families.

    Russia's and China's support for the Assad regime should not come 
as a surprise, however. Russia appears to have no interest in hampering 
relations with Syria, its fifth-largest trading partner. Indeed, 
Russia's military maintains a naval base in the port city of Tartus, 
and its arms contracts with the Syrian military are currently worth $4 
billion or more. For its part, China likely worries that further 
uprisings across the Middle East could spur domestic unrest at home. 
Moreover, Iran, a longtime ally of the Assad regime, has intervened 
even more directly to prop up the Syrian government. In particular, 
Iran's Islamic Revolutionary Guard Corps has intensified financial and 
military assistance to the Assad regime.
             ii. syrians call for humanitarian intervention
    In the absence of a strong international response to the Syrian 
government's internal war on the pro-democracy opposition, some 
previously peaceful protestors have begun to take up arms to defend 
themselves against the Assad regime's security forces. In addition, 
several thousand Syrian army troops have reportedly defected to join 
with other dissident protestors and form a self-organized resistance 
group now known as the Free Syrian Army. Armed clashes between 
government forces and protestors are on the rise, as Syria appears 
increasingly on the verge of a civil war.
    Members of the Syrian opposition have also begun to call for the 
international community to intervene and prevent further bloodshed by 
the Assad regime. For example:

  <bullet> On September 27, 2011, leading Syrian opposition groups--
        including the Syrian Revolution General Commission, the 
        Damascus Declaration, the Syrian Emergency Task Force, among 
        others--said that they ``seek international intervention in the 
        form of a peacekeeping mission with the intention of monitoring 
        the safety of the civilian population.''
  <bullet> On October 2, 2011, the Syrian National Council, an 
        opposition organization modeled after Libya's Transitional 
        National Council, said: ``The Council demands international 
        governments and organizations meet their responsibility to 
        support the Syrian people, protect them and stop the crimes and 
        gross human rights violations being committed by the 
        illegitimate current regime.''
  <bullet> On October 4, 2011, Syrian National Council member Radwan 
        Ziadeh said: ``The people inside Syria are calling for a no-fly 
        zone and an intervention, but not the activists outside Syria. 
        We on the outside know that the international community is not 
        there yet. But the people inside are very frustrated with the 
        international community.''
  <bullet> And on October 28, 2011, opposition groups throughout Syria 
        organized ``No-Fly Zone Friday,'' a series of coordinated 
        protest rallies to urge the international community to 
        intervene and halt the Assad regime's assault on civilians.

    The Obama administration, however, has hesitated to answer these 
and other calls for international humanitarian intervention in Syria. 
During an interview with Fox News Sunday on October 23, 2011, Secretary 
of State Clinton urged embattled Syrian civilians to remain peaceful 
and inexplicably denied that opposition groups had called for 
international intervention:

          In Syria, we are strongly supporting the change from Assad 
        and also an opposition that only engages in peaceful 
        demonstrations. And you do not have from that opposition, as 
        you had in Libya, a call for any kind of outside intervention.

    Administration officials have also counseled the Syrian opposition 
to avoid militarizing the conflict--a morally questionable approach for 
people facing lethal violence directed against themselves and their 
families on a daily basis.
    That said, regional actors have begun to take initial--albeit 
limited--steps to respond to the Assad regime. For example, Turkey has 
vocally criticized the Assad regime for its continuing assaults on 
protestors; cut all arms shipments to Syria; and provided safe haven to 
Syrian refugees and military defectors. Ankara has also long indicated 
its openness to targeted sanctions on the Syrian government, but has 
yet to impose them. In an interview with the Financial Times on 
November 1, 2011, Turkish Foreign Minister Ahmet Davutoglu did not rule 
out more aggressive measures such as extending a buffer zone or a no-
fly zone into Syrian territory to protect civilians:

          The Syrian regime is attacking the Syrian people which is 
        unacceptable. . . . When we see such an event next door to us 
        of course we will never be silent. . . . We hope that there 
        will be no need for these types of measures but of course 
        humanitarian issues are important. . . . There are certain 
        universal values all of us need to respect and protecting 
        citizens is the responsibility of every state.

    In addition, the Arab League recently put out a proposal for the 
Syrian government to halt the violence against civilians and begin a 
dialogue for reforms with the opposition movements. Although the Assad 
regime accepted this proposal on November 1, 2011, Syrian opposition 
members have expressed deep skepticism. Indeed, Syrian security forces 
subsequently renewed attacks on Homs, the country's third-largest city, 
with The New York Times reporting on November 8, 2011, that an 
estimated 111 people died over a five-day period.
                       iii. u.s. options in syria
    Under the authoritarian rule of the Assad family, Syria has posed 
and continues to pose a threat to U.S. national security interests. The 
Syrian government is a state sponsor of terrorism; pursued programs 
related to weapons of mass destruction; and strengthened ties with 
rogue states like North Korea and Iran. The State Department reports 
that the Assad regime, in addition to its atrocious human rights 
record, has served as a ``key hub for foreign fighters en route to Iraq 
and a safe haven for Iraqi Baathists expressing support for terrorist 
attacks against Iraqi government interests and coalition forces.'' 
Syria has also served as a critical link between Iran and the Hezbollah 
terrorist network. Indeed, the nonpartisan Congressional Research 
Service quoted a U.S. official on background as saying: ``The Syrians 
are doing things in terms of deepening their entanglement with Iran and 
Hezbollah that truly are mind-boggling. They are integrating their 
military/defense systems to unprecedented levels. Hafez al-Assad never 
would have gone so far and it is becoming hard to see how they can 
possibly extricate themselves.'' Furthermore, numerous Palestinian 
terror groups--including those listed as Foreign Terrorist 
Organizations by the State Department--continue to operate within 
Syria's borders and maintain offices in Damascus.
    Many thousands of lives are at risk if the Assad regime continues 
its relentless assault on Syrian protestors. The Obama administration 
has declared the violence in Syria a ``humanitarian crisis'' as 
thousands of civilians have already fled to northern Turkey in efforts 
to escape the Assad regime. As the situation deteriorates further, the 
number of displaced persons and refugees is expected to rapidly 
increase. Syrian security forces also have reportedly pursued Syrian 
dissidents who have fled to Lebanon, and planted land mines along the 
country's border with Lebanon to halt the further flow of refugees. 
Indeed, the U.S. Ambassador to the United Nations, Susan Rice, now 
calls Syria ``an urgent moral challenge and a growing threat to 
regional peace and security.''
    While President Obama has declined so far to call for direct 
international involvement in Syria, the United States nonetheless has a 
vested national interest in preventing the further slaughter and 
displacement of innocent civilians in Syria. As the Presidential Study 
Directive on Mass Atrocities of August 4, 2011, states, ``Preventing 
mass atrocities and genocide is a core national security interest and a 
core moral responsibility of the United States.'' It continues:

          Our security is affected when masses of civilians are 
        slaughtered, refugees flow across borders, and murderers wreak 
        havoc on regional stability and livelihoods. America's 
        reputation suffers and our ability to bring about change is 
        constrained, when we are perceived as idle in the face of mass 
        atrocities and genocide. Unfortunately, history has taught us 
        that our pursuit of a world where states do not systematically 
        slaughter civilians will not come to fruition without concerted 
        and coordinated effort.

    Given that a collective response from the U.N. Security Council is 
unlikely, what options does the United States have for responding to 
the Assad regime's continuing atrocities against the Syrian people? In 
late August 2011, Michael O'Hanlon of the Brookings Institution 
identified potential measures, including a maritime operation to 
enforce stronger sanctions, a Kosovo-style air strike campaign, or even 
a military invasion to carry out regime change. The United States 
should not only keep all of those options on the table, but also 
explore the following intermediate steps.
Option (1): Impose Crippling Sanctions on the Syrian Government
    The United States should work to immediately expand the scope of 
sanctions on the Assad regime for its mass murder of Syrian civilians 
and other human rights abuses. So far, the Obama administration has 
responded slowly to the Syrian government's violent crackdown on 
protestors, imposing three incremental rounds of Executive Branch 
sanctions on Syria:

  <bullet> Executive Order 13572, signed by President Obama on April 
        29, 2011, targets the property and interests not only of 
        several high-ranking Syrian officials and entities, but also of 
        the Qods Forces, a special unit of Iran's Islamic Revolutionary 
        Guard Corps that is believed to be strongly aiding Syria's 
        anti-opposition activities.
  <bullet> Executive Order 13573, signed by the President on May 18, 
        2011, expands the list of Syrian officials sanctioned by the 
        United States for human rights abuses to include Bashar al-
        Assad himself, as well as Syria's vice president, prime 
        minister, defense and interior ministers, and head of military 
        intelligence.
  <bullet> Executive Order 13582, signed by President Obama on August 
        17, 2011, freezes all Syrian assets under U.S. jurisdiction, 
        bars U.S. citizens and companies from participating directly or 
        indirectly in a broad range of transactions with Syrian 
        entities, and blacklists a new set of Syrian individuals and 
        companies.

    The United States can and should do more to establish a stronger 
set of sanctions capable of truly crippling the Syrian government. 
Indeed, the Assad regime is already economically vulnerable, and could 
be impacted quickly--perhaps decisively--by more comprehensive 
sanctions. Thanks in part to existing sanctions, it appears that 
Damascus has poor access to hard currency; is depleting its dollar 
reserves in attempts to maintain its currency and pay its security 
forces; and faces the prospect of hyperinflation, especially in the 
absence of continuing financial aid from Iran. As The New York Times 
reported on October 10, 2011: ``The Syrian economy is buckling under 
the pressure of sanctions by the West and a continuing popular 
uprising, posing a growing challenge to President Bashar al-Assad's 
government as the pain is felt deeply by nearly every layer of Syrian 
society.''
    The President and Congress should therefore work to quickly pass 
legislation for harsher U.S. sanctions on Syria, including 
extraterritorial sanctions aimed at convincing Member States of the 
European Union (E.U.), Turkey, and other countries to join the United 
States in targeting Syria's energy industry, financial and banking 
system, and other sectors that are funding the Assad regime. Pending 
legislation relevant to this effort includes:

  <bullet> The Syria Sanctions Act of 2011 (S. 1472)--originally 
        introduced by Senators Kirsten Gillibrand (D-NY), Joe Lieberman 
        (ID-CT), and Mark Kirk (R-IL)--would penalize, for the first 
        time, foreign entities that aid, contribute to, or invest in 
        Syria's energy sector. Given that American companies are now 
        prohibited from conducting business in Syria, the Syria 
        Sanctions Act would impose extraterritorial sanctions to 
        persuade other countries to establish comparable prohibitions 
        by preventing foreign entities that hold financial stakes in 
        Syria's power industry, purchase Syrian petroleum, or export 
        gasoline to Syria, from having access to U.S. government 
        contracts and financial institutions.
  <bullet> The Syria Freedom Support Act of 2011 (H.R. 2106)--
        originally introduced by Representatives Ileana Ros-Lehtinen 
        (R-FL) and Eliot Engel (D-NY)--seeks to strengthen U.S. 
        sanctions on Syria, and targets the country's exports, 
        financial transactions, banking, and procurement activities. In 
        particular, the bill contains measures to impede the 
        development of Syria's petroleum resources, and the development 
        and export of its refined petroleum products. The bill also 
        imposes wide-ranging sanctions related to Syria's sponsorship 
        of international terrorism, as well as its weapons of mass 
        destruction and missile programs.

    As Reuel Marc Gerecht and Mark Dubowitz, both of the Foundation for 
Defense of Democracies (FDD), wrote in the Washington Post: ``Obama 
wouldn't necessarily have to lead from the front'' in implementing more 
comprehensive sanctions on Syria. They explain:

          The European Union is slowly but surely developing tougher 
        sanctions. The E.U., which purchases most of Syria's oil, just 
        passed an embargo, effective November 15, on importation of 
        Syrian crude. Implementing further comprehensive measures 
        against Syria's energy sector and central bank and Iranian 
        commercial entities heavily invested in Syria may require the 
        presidential bully pulpit and some arm-twisting of European 
        allies and the Turks. But Bashar al-Assad's bloody oppression 
        gives Washington the high ground. What seemed impossible five 
        months ago is becoming practicable.

    To that end, the United States should further press Turkey, E.U. 
Member States, and other countries to impose unilateral sanctions on 
the Syrian government for human rights abuses; to crack down on 
Lebanese banks operating in Syria; and to target specific Syrian 
businessman who collaborate with the regime, but value their ability 
and that of their families to travel, study, and do business abroad. 
Travel bans might also be imposed on certain Syrian officials, and 
actions taken to stop Western airlines from flying to and from Syrian 
airports.
    In addition, Washington should work with like-minded nations to 
multilateralize sanctions against Syria's controversial nuclear and 
missile programs and designate the Syrian entities and individuals 
involved in Syria's covert nuclear program with North Korea. As a first 
step, the Obama administration should push E.U. Member States to join 
the United States in targeting Syria's Scientific Studies and Research 
Center (SSRC). The U.S. Treasury Department reports that the SSRC 
``controls Syria's missile production facilities and oversees Syria's 
facilities to develop unconventional weapons and their delivery 
systems.'' The Bush administration sanctioned the SSRC under the 
Executive Order 13382 of June 28, 2005. Indeed, given recent 
revelations that the Syrian government had reportedly obtained nuclear 
assistance from Pakistani proliferator A.Q. Khan related to uranium 
enrichment, the United States should continue to work with 
international partners to press the Assad regime both for its human 
rights and nuclear transgressions.
Option (2): Provide Assistance to Syrian Opposition Groups
    To begin with, Washington should immediately intensify its 
political engagement with the various anti-regime groups both inside 
and outside of Syria. A key objective would be to help empower the 
moderate members of the Syrian opposition vis-a-vis the Islamist 
elements. In parallel, the United States, in conjunction with 
international partners, should work with the Syrian opposition to craft 
a strategy for more effective and sustained messaging to key groups 
(e.g., Alawis, Christians, and the Syrian business community), with the 
aim of reassuring them and fracturing their ties to the Assad regime 
and the untenable status quo in Syria.
    Besides intensified political engagement with the Syrian 
opposition, the United States and like-minded nations should explore 
the full spectrum of options for direct assistance. At one end of the 
assistance spectrum, is financial aid to the recently formed movements 
of striking Syrian workers in Deraa and other towns. Indeed, the Assad 
regime, fearful of the potential of the Syrian strike movements, has 
taken aggressive measures to suppress them.
    Washington should also work with partners should help opposition 
groups to establish television and radio broadcasting capability into 
Syria capable of circumventing the Assad regime's signal jamming. They 
should also supply encryption-enabled portable communications equipment 
to the protest movement within Syria. As Gerecht and Dubowitz wrote in 
the Washington Post, Syrian opposition groups could greatly benefit 
from a cross-border wireless Internet zone that stretches to the Syrian 
city of Aleppo, a commercial center roughly 20 miles from Turkey. Such 
a communications network will require Turkish acquiescence--no longer 
unthinkable--and financial resources (depending on its range and speed, 
between $50 and $200 million). However, if Washington is unwilling to 
foot this bill alone, the Obama administration should consider tapping 
into existing Pentagon and CIA covert funds, and soliciting the 
remainder from our European and Arab partners.
    In addition, the United States and European Union should 
immediately take actions against telecommunications companies that have 
reportedly assisted the Assad regime's efforts to monitor and intercept 
the communications of the Syrian opposition. For example, Bloomberg 
News reported on November 3, 2011, that an Italian-based company doing 
just that:

          Employees of Area SpA, a surveillance company based outside 
        Milan, are installing the system under the direction of Syrian 
        intelligence agents, who've pushed the Italians to finish, 
        saying they urgently need to track people, a person familiar 
        with the project says. The Area employees have flown into 
        Damascus in shifts this year as the violence has escalated, 
        says the person, who has worked on the system for Area.

    At the other end of the assistance spectrum, the United States 
could consider providing arms-related assistance--or encouraging the 
provision of arms-related assistance by partners in the region--that 
would enable members of the Syrian opposition to better defend 
themselves against the Assad regime's relentless attacks. Although 
Syria currently lacks the sort of unified opposition that emerged in 
the early stages of protests in Libya, military defectors and 
opposition forces are becoming self-organized and increasingly united. 
At the forefront of Syria's armed opposition movement is the Free 
Syrian Army, a group of thousands of military defectors led by former 
Syrian Air Force Colonel Riad al-Asaad. Over the last few months, the 
group has mounted formidable challenges to Syrian government forces in 
several locations, including Homs, Jabal Zawiya, and Deir al-Zour. 
Defectors have focused their attention on protecting civilians and 
protestors in specific neighborhoods.
    Precedents for providing self-defense assistance to anti-regime 
Syrian groups may be found in U.S. efforts to help provide self-defense 
arms to the Bosnian Muslims in the face of Slobodan Milosevic's Serbian 
military forces in the 1990s and, more recently, to the Libyan 
opposition in the face of aggression by the Qaddafi regime. As The New 
York Times has reported, Turkey is now providing assistance to the Free 
Syrian Army out of the refugee camp on its border with Syria.
    It is critical that the United States become actively engaged and 
involved in shaping this force, rather than exclusively ``subcontract'' 
the effort to regional actors. Indeed, if the Syrian protestors want to 
arm themselves against the regime's depredations, it is morally tenuous 
for the Obama administration to urge that the Syrian opposition remain 
non-violent. Concerns about Syria's internecine strife are legitimate, 
but they should not lead us to disparage those who are trying to 
protect themselves and their families from the Assad regime's murderous 
security forces--especially if no one in the international community 
will come to their defense. Official American rhetoric on this issue 
ought to change.
Option (3): Limited Retaliatory Air Strikes
    The United States should examine options related to limited 
retaliatory air strikes against select Syrian military targets. The air 
strikes could be limited in duration and scope, surgically targeting 
Syrian air defenses, command-and-control assets, training facilities, 
and/or weapons depots. Each air strike would contain a narrow and 
clearly defined military objective, and the United States could enact 
such strikes intermittently or in response to severe actions by the 
Assad regime against civilians.
    In recent years, limited air strikes have been successfully 
launched against Syrian assets. For example, several U.S. military 
helicopters carrying Special Forces penetrated Syrian airspace 
undetected in October 2008 to kill Abu Ghadiya, the Al Qaeda leader 
responsible for funneling foreign fighters and money into Iraq. The 
raid occurred five miles from the Iraq border in the eastern town of 
Sukkariya. Also, Israel's Air Force penetrated Syrian airspace in 
September 2007 and destroyed a secret nuclear reactor in the Dair 
Alzour region built by the Assad regime with North Korean assistance.
    Limited air strikes could potentially be a more palatable, 
intermediate military option for the Obama administration and foreign 
governments. This option would not require a sustained military 
presence and would involve far fewer military resources. The immediate 
goal of this option would be to rein in the regime's military 
operations and make clear the United States and allies will no longer 
tolerate the Assad regime's continued killing spree. Another goal could 
be to encourage further defections from the Syrian military.
    Limited air strikes pose short-term risks. President Assad has 
already stated that the Syrian government would aggressively retaliate 
if it came under attack by international forces. For example, Assad 
could order either direct attacks--or indirect attacks through 
Hezbollah proxies--against Israel. The Syrian government could increase 
internal violence against the population in an effort to prevent 
further defections from the military and demonstrate resolve against 
international pressure. However, such retaliatory threats clearly 
underscore the dangers of allowing a terrorist-supporting regime to 
survive. Terrorism becomes a trump card that can be pulled out at 
anytime against anyone, foreign or domestic, who threatens the Assad 
regime.
Option (4): Impose No-Fly/No-Go Zones in Syria
    The United States should also consider imposing no-fly or no-go 
zones to protect Syria's population from further attacks by the Assad 
regime's security forces. In recent months, opposition groups within 
Syria have begun calling for an international intervention on 
humanitarian grounds.
    Efforts to impose no-fly or no-go zones in Syria, of course, will 
benefit from strong international support. A no-fly zone will likely 
require air support from both NATO and Arab allies. And as Michael 
O'Hanlon of the Brookings Institution wrote, under a no-go zone--
perhaps in Syrian territory adjacent to its borders with Jordan or 
Turkey--``[o]ne or two major parts of Syria might be protected in this 
way, at least reasonably well, by a combination of outside airpower and 
perhaps a limited number of boots on the ground.''
    Syria's air defenses, however, will likely pose a more formidable 
obstacle than those encountered by the United States and NATO in Libya. 
Syria's Air Force is comprised of approximately 548 combat aircraft; 
air defenses including Russian-made Pantsir S1E and Buk-M2E air-defense 
systems; and other anti-aircraft weapons. The Syrian National Council 
recently published a map displaying the location of Syria's Soviet-
designed surface-to-air missiles and air defenses.
    Any such mission will likely require use of American military 
assets to defeat Syria's extensive air defenses and air force. While 
the 2007 Israeli air strike on Syria's secretly-built nuclear reactor 
demonstrated that those systems can be overcome, they will nonetheless 
need to be neutralized in order for large-scale air operations to be 
conducted. The United States presently has two aircraft carriers in the 
region that could assist with dismantling Syria's air defenses and 
supporting a no-fly or no-go zone: the USS John C. Stennis and the USS 
George H.W. Bush.
    If NATO countries were to join in a no-fly or no-go zone effort, 
Incirlik air base in Turkey could be used to support NATO air forces 
(and American squadrons of F-15s, F-16s, and A-10s that are currently 
based in Europe) in a potential coalition mission, as it was used to 
support the Northern No-Fly Zone over Iraq during the 1990s. In 
addition, the British Royal Air Force's Akrotiri base in Cyprus could 
be utilized, as it was during the NATO-led Operation Unified Protector 
in Libya in 2011.
    Establishment of a no-go zone would strongly benefit from 
diplomatic support from Middle Eastern governments, especially Turkey 
and Jordan. As part of a no-go zone, the United States, NATO allies, 
and regional partners could establish safe havens along the Jordanian 
and Turkish borders. Already, thousands of Syrian refugees have fled 
and sought refuge in Turkey. A portion of Syria's Idlib province, along 
the northern border with Turkey, could provide a defendable option. 
This would emulate U.N.-mandated safe havens implemented in Iraq 
following the Gulf War in 1991.
    To protect against future attacks the zone would require continuous 
surveillance, credible retaliatory capabilities, and perhaps ground 
forces. This level of intervention would require long-term political 
will by coalition forces. The importance of international support in 
this effort cannot be understated, as the Assad regime has repeatedly 
shown its disdain for international boundaries. Syrian tanks and troops 
have repeatedly crossed the border into Lebanon to abduct and kill 
purported deserters. On October 6, 2011, Syrian troops--backed by tanks 
and armored vehicles--killed a farmer and shelled an abandoned factory 
in the Lebanese border town of Arsal. Further news reports show 
repeated cross-border incursions by Syrian troops near Hnaider and 
Mouanse.
    Syrian opposition members say implementation of no-fly or no-go 
zones in Syria could provide much-needed cover to opposition forces, 
thereby encouraging mass defections from the Syrian military. In a 
promising development, leading U.S. lawmakers are now discussing the 
possibility of no-fly and no-go zones in Syria. For example, Senator 
Joe Lieberman (ID-CT) first suggested looking at military options to 
protect Syrian civilians in March 2011, and returned to the idea of no-
fly and no-go zones in October 2011. And during an October 23, 2011, 
speech before a World Economic Forum meeting in Jordan, Senator John 
McCain (R-AZ) discussed the possibility U.S. military involvement in 
Syria:

        Now that military operations in Libya are ending, there will be 
        renewed focus on what practical military operations might be 
        considered to protect civilian lives in Syria. . . . The Assad 
        regime should not consider that it can get away with mass 
        murder. [Libyan dictator Muammar] Gadhafi made that mistake and 
        it cost him everything.

    However, the U.S. Ambassador to NATO, Ivo Daalder, told a reporter 
on November 7, 2011, that alliance members are not currently 
considering intervening militarily to stop the Assad regime: ``There 
has been no planning, no thought, and no discussion about any 
intervention into Syria. It just isn't part of the envelope of 
thinking, among individual countries and certainly among the 28 [full 
NATO members]. . . . If things change, things change. But as of today, 
that's where the reality stands.
 conclusion: time for the united states to lead from the front on syria
    Despite gridlock in the U.N. Security Council, the United States 
nonetheless has options for responding, individually and in concert 
with others, to the Assad regime's continuing assault on the Syrian 
people. After months of facing relentless violence, Syrian opposition 
groups are now increasingly demanding decisive international action to 
prevent further bloodshed. It's time for policymakers and lawmakers in 
the United States, Europe, Turkey, and other countries to act.
    The Syrian people have shown astonishing fortitude in withstanding 
the regime's brutal security forces. The Assad regime is now trying to 
kill its way back to internal ``stability.'' But such actions, of 
course, will do the opposite of what the regime intends: Syria will 
slide further toward civil war, thousands more will die, and the West 
and Turkey will eventually be forced to intervene--except Syria's 
ethnic and religious mosaic will likely by then be torn apart, making a 
humane post-Assad Syria much more difficult to build. Foreign 
intervention sooner offers Syria, the Middle East, and the West the 
likelihood of a much better outcome.
                                 ______
                                 

Prepared Statement of Andrew J. Tabler, Next Generation Fellow, Program 
      on Arab Politics, Washington Institute for Near East Policy

    Mr. Chairman, the situation on the ground in Syria continues to 
deteriorate. This week, the United Nations estimated that over 3,500 
Syrians had been killed since anti-Asad-regime protests broke out on 
March 15. Thousands more have been arrested in what now can be 
described as the most brutal crackdown against civilians since Hafiz 
al-Asad's genocidal massacre in Hama 29 years ago.
    Protests in Syria have largely remained peaceful in nature, with 
Asad-regime forces using live fire to disperse crowds. The hope of the 
protestors, as well as the Syrian opposition in exile, was that the 
protests, as in Egypt and Tunisia, would bring the masses onto the 
streets, garner clear support from the international community, and 
force the regime to choose between stepping aside or continuing to hold 
onto power through brute force. Despite large protest numbers and 
condemnation by Western and regional countries, Asad has apparently 
decided to fight it out until the end.
    The regime's strategy is simple: deploy military and security units 
fully into restive areas around Der'a, Hama, Deir Ezzor, Idlib, and 
Homs; use live fire to scare those ``on the fence'' from taking the 
protests into the central squares of Damascus and Aleppo; rely on 
vetoes of U.N. Security Council resolutions by Russia and China; point 
to statements by Western and regional countries that a military 
solution is ``off the table''; wear down the protestors so they return 
home; and launch a ``reform'' initiative that the regime can pay lip 
service to.
    The gambit has worked thus far. The protestors continue to come out 
in the streets daily, and intensively on Fridays, to demand the fall of 
the Asad regime. But it is hard for them to see a light at the end of 
this bloody tunnel. Frustrated, protestors are now calling for 
international support via a no-fly zone or a buffer zone along Syria's 
borders where those opposing the regime could seek safe haven, etc. But 
with each announcement that such schemes are not in the making, 
protestors face an increasingly grim future.
    Increasing numbers in the Syrian opposition are seeking to take 
matters into their own hands. Defectors from the Syrian military--who 
fled their posts rather than obey orders to fire on protestors--are 
aligning themselves with the ``Free Syrian Army''--an armed group whose 
leadership is based in Turkey with active operations in and around 
Homs, Idlib, and other Syrian locales. Added to this are two other 
types of armed groups: unidentified Salafist elements and certain 
criminal gangs whose members originate in Syria's brisk smuggling 
trade. While all three groups continue to be well outgunned by the 
security forces, many Syrians see the activities of such groups, absent 
international action of some type, as the only way to ultimately 
displace the regime.
    Until now, U.S. policymakers have supported Syria's peaceful 
protest movement, with Ambassador Robert Ford's visits to besieged 
cities such as Hama spotlighting the regime's human rights abuses. The 
Embassy has also met with Syrians on the ground to better gauge the 
direction of the conflict. This effort has been augmented by a robust 
sanctions regime. Following President Obama's announcement last August 
that President Asad must ``step aside,'' Washington enacted the 
remaining parts of the 2004 Syrian Accountability Act, broadened the 
scope of Treasury Department designations of regime officials and 
associates, and announced a ban on Syrian oil sales. The administration 
also successfully enlisted the support of the European Union countries 
to also call for Asad's departure and adopt similar measures.
    With the regime using brute force to maintain its grip on power, 
and Syrians increasingly pursuing parallel tracks of both peaceful and 
armed resistance to the Asad regime, the United States now needs to 
develop a concerted plan to prepare for all contingencies and bring 
about the demise of the Asad regime. The longer the regime holds on, 
the bloodier and more sectarian the conflict is likely to become and 
spread to neighboring countries.
    This plan should include the following action items:

  <bullet> Form a Syria contact group: Until now, the Obama 
        administration has been careful not to ``get out ahead'' of the 
        Syrian protest movement or regional allies, who are well poised 
        to exact pressure on the Asad regime. In the face of the Asad 
        regime's failure to implement the recent Arab League 
        initiative, the Obama administration should formally push for 
        the formation of a Syria contact group that would shepherd 
        concerted multilateral pressure--a method that historically 
        worked best with Damascus--and develop a strategy for ending 
        the Asad regime.
  <bullet> Develop a strategy for peeling away Asad regime supporters: 
        The Asad regime is a minority Alawite-dominated group whose 
        core consists of similar heterodox Shia offshoots (Alawites, 
        Druze, and Ismailies) who make up the command of the military 
        and security services. But the regime's stability also relies 
        on other communities with extensive familial and trade ties to 
        Western countries, most notably Christians and Sunni 
        businessmen. A plan to use targeted U.S., EU, and Turkish 
        sanctions against the regime's most egregious supporters will, 
        if used at key political junctures, substantially weaken the 
        Asad regime's grip on power.
  <bullet> Help the Syrian opposition plan ahead: The fear generated by 
        the regime crackdown, petty differences among opposition 
        figures, as well as over 40 years of authoritarian rule have 
        hobbled the Syrian opposition's ability to plan. It is 
        unrealistic to expect or require the Syrian opposition to come 
        up with civil resistance strategy like that used by opposition 
        protestors in Belgrade or Cairo to bring down regimes there. 
        Rather, the United States should assist the Syrian opposition 
        in developing a civil resistance strategy that broadens the 
        protests to include tactics such as boycotts and general 
        strikes. This will maximize the political power of the peaceful 
        protest movement.
  <bullet> Push for Human Rights monitors: The Asad regime literally 
        wants to bury its human rights violations. The United States 
        should facilitate, along with like-minded diplomats from allied 
        countries, the deployment of human rights monitors, including 
        people from Arab countries and Turkey, to keep the Asad 
        regime's crackdown in the spotlight.
  <bullet> Prepare for a militarization of the conflict: With Security 
        Council action blocked by Russia and China and increased 
        fighting by defectors around Homs and elsewhere, the chances 
        for sectarian war are increasing. Regional actors (individuals 
        and states), seeing a moral and strategic imperative, will 
        likely be drawn into what could be a proxy struggle. To this 
        end, the United States will need to explore with its allies the 
        possibility of the creation of ``no-fly'', ``no-go'', or 
        ``buffer'' zones as ways to contain the conflict and help 
        garner support for the Syrian opposition.
  <bullet> Push for Security Council action: The failure of last week's 
        Arab League initiative to end the violence has opened the door 
        for the United States and the Europeans to return to the 
        Security Council for a resolution on Syria. While Russia and 
        China have vetoed past measures, they will find it increasingly 
        hard to do so as Arab efforts to negotiate a soft landing to 
        the crisis fail. Security Council resolutions will serve as the 
        basis for maximizing multilateral pressure, especially 
        comprehensive sanctions and possible future use of force.
                                 ______
                                 

  Prepared Statement of Maria McFarland, Deputy Washington Director, 
                           Human Rights Watch

    Chairman Casey, Ranking Member Risch, and committee members, thank 
you for the opportunity to submit written testimony on U.S. policy and 
the human rights crisis in Syria.
    Since largely peaceful protests in Syria began on March 18, 2011, 
the Syrian security forces, under the command of President Bashar al-
Assad, have been engaged in a relentless crackdown. According to the 
United Nations, more than 3,500 people, largely civilians, have been 
killed, while tens of thousands more have been arrested, detained, 
forcibly disappeared, and tortured.
    The government has also blocked access for most international human 
rights monitors and foreign journalists, and has imposed a tight 
information blockade. Human Rights Watch conducted interviews with 
hundreds of residents who have escaped to neighboring countries and 
spoke to many witnesses still inside Syria. We have documented 
systematic, widespread, and gross violations of human rights by the 
Syrian Government, which may amount to crimes against humanity.
    Syria has blatantly flouted its commitments, under a recent Arab 
League-sponsored deal, to cease the violence, withdraw all troops from 
cities and towns, and allow access to journalists and Arab League 
monitors. Due to ongoing restrictions on independent monitors, Human 
Rights Watch has had difficulty verifying specific information on the 
latest spate of killings. But it is clear that the last week has seen 
an intensification of the violence, with reports of mounting deaths as 
part of a renewed government crackdown, particularly on the city of 
Homs.
    Predictably, the Syrian Government has consistently denied the 
abuses. Syrian officials accuse ``terrorist groups'' or ``armed gangs'' 
of causing the violence. They inconsistently and vaguely claim that the 
armed gangs are responsible for the deaths of protesters, or that the 
armed gangs have attacked security forces, leading the security forces 
at times to kill residents by mistake.
    Human Rights Watch research indicates that the protests have been 
overwhelmingly peaceful. We have documented a few instances in which 
civilians and armed defectors used force, including deadly violence 
against security forces. But while these incidents should be fully 
investigated, they can in no way justify the systematic violence of the 
Syrian security forces against their own people.
    The decision of some protesters and defectors to arm themselves and 
fight back, shooting at security forces, shows that the strategy 
adopted by Syria's authorities has dangerously provoked escalation in 
the level of violence, and highlights the need for an immediate 
cessation of lethal force against peaceful protests lest the country 
slip into bloodier conflict. The protests themselves were sparked 
partly by the developments in Tunisia and Egypt. But they are mostly a 
local response to four decades of government repression, by a 
population that could no longer tolerate the heavy hand of Syria's 
security services. Despite the government's ongoing killings and 
torture, the protests have continued to escalate throughout the 
country, and they are unlikely to go away anytime soon.
    That means that the international community, including the United 
States, faces the difficult challenge of bringing pressure to bear on 
the government of Assad to stop the abuses and ensure that civilians 
are protected.
    So far, the U.S. response has been largely positive and helpful. In 
public statements, President Obama has condemned the Syrian 
Government's brutality and clearly expressed support for ``a transfer 
of power that is responsive to the Syrian people,'' most recently in 
his September 21, 2001, speech before the U.N. General Assembly.
    The United States has also taken direct action. The Treasury 
Department has imposed targeted sanctions on senior Syrian officials, 
including Syria's Foreign Minister, which ban Americans from doing 
business with these individuals and block any assets they may have in 
this country. The United States has also imposed sanctions on Syria's 
oil sector, banning the importation of petroleum products from Syria.
    Ambassador Robert Ford's performance within Syria has also been 
very helpful, and sets an example for how U.S. Ambassadors should 
conduct themselves in repressive societies: speaking out publicly, 
engaging with civil society and opposition groups, and personally 
traveling to areas affected by the crackdown to show solidarity with 
Syrians who are asking for their human rights. We urge Congress to ask 
why the State Department does not encourage its Ambassadors to other 
comparable countries to adopt a similar approach.
                     international action on syria
U.N. Human Rights Council Resolutions
    Internationally, the United States has played an important role in 
pressing for action, including by sponsoring a special session on Syria 
at the U.N. Human Rights Council (HRC) in April, which called on the 
Office of the U.N. High Commissioner for Human Rights (OHCHR) to 
conduct a mission to investigate events in Syria. While OHCHR was not 
granted access to Syria, it was able to release a report in August, 
finding ``a pattern of human rights violations that constitutes 
widespread or systematic attacks against the civilian population, which 
may amount to crimes against humanity.''
    Also during the August session of the Human Rights Council, the 
United States backed a European Union-sponsored resolution on Syria 
that unequivocally condemns the Syrian Government abuses and calls for 
them to end. The resolution also established a Commission of Inquiry 
(Col) charged with investigating the abuses, identifying those 
responsible, and reporting back to the HRC. The Col report will also be 
transmitted to the U.N. General Assembly. This resolution was an 
important political signal, as it received a much broader support at 
the HRC than the April resolution. Only four states voted against the 
resolution (Ecuador, China, Russia, and Cuba), while a broad majority 
of 33 HRC members voted in favor of it.
    The Commission of Inquiry, which has received no cooperation from 
Syria so far, is required to publish its report by the end of November 
2011 and to update it in March 2012.
Veto at U.N. Security Council
    Unfortunately, other governments have succeeded in blocking 
effective action at the U.N. Security Council.
    On August 18, United Nations High Commissioner for Human Rights 
Navi Pillai asked the Security Council to refer Syria to the 
International Criminal Court for the investigation of alleged 
atrocities against antigovernment protestors. Just before Pillai's 
deposition, U.S. President Barack Obama and the European Union had 
recommended sanctions and called on Assad to step down.
    But despite these reports and statements, on October 4, after 7 
months of near complete inaction, Russia and China vetoed a Security 
Council resolution calling on Syria to end the violence against its 
citizens.
    India, Brazil, and South Africa abstained from the vote, invoking 
concerns that the condemnatory resolution might lead to the imposition 
of sanctions (and expressing concern over NATO action in Libya, which 
they viewed as exceeding its mandate), while claiming to be deeply 
concerned about the plight of the Syrian people. These three countries 
have so far opted for a softer approach on Syria: in August, they sent 
a delegation to Syria with the aim of encouraging the Syrian Government 
to exercise restraint and to initiate talks with the opposition. In 
later public statements they said they had called for an end to the 
violence and respect for human rights.
Arab League Initiative
    Yet more recently the League of Arab States has taken action. An 
Arab League delegation led by Qatar and made up of the Foreign 
Ministers of Egypt, Oman, Algeria, and Sudan as well as Nabil el-Araby, 
the league's secretary general, visited Syria in October. Russia 
expressed support for the initiative.
    On November 2, the Arab League announced that it had reached a deal 
with the Syrian Government that required Syria to halt all acts of 
violence and protect Syrian citizens, release all those detained in 
connection with the protests, remove security forces from cities and 
residential neighborhoods, and grant field access to organizations of 
the Arab League and to the international media to monitor the 
situation.
    If Syria had respected the deal, this would have represented an 
important step forward. But after reportedly releasing about 500 
detainees on the occasion of the holiday of Eid al-Adha, the Syrian 
Government has continued its crackdown. According to the U.N. High 
Commissioner for Human Rights, more than 60 people are reported to have 
been killed by military and security forces since Syria signed the Arab 
League deal. These include at least 19 on the Sunday that marked Eid 
al-Adha.
                               next steps
    The Arab League's response during an emergency meeting this 
Saturday to Syria's failure to fulfill the terms of its deal may be an 
important turning point. Depending on the position they take, it is 
possible that not only the Arab League states but also countries like 
India, Brazil, and South Africa, could be persuaded to support stronger 
measures on Syria. Given Russia's support for the Arab League 
initiative, it too, should support an escalation of international 
pressure on Syria.
    Human Rights Watch has called upon the General Assembly to take 
action where the Security Council has failed to do so. Resolution 377A 
of the U.N. General Assembly states that ``if the Security Council, 
because of lack of unanimity of the permanent members, fails to 
exercise its primary responsibility for the maintenance of 
international peace and security [...], the General Assembly shall 
consider the matter immediately.'' We have urged the General Assembly 
to also ask the U.N. Secretary General to name a special envoy for 
Syria, as well as refer the upcoming report of the Commission of 
Inquiry back to the U.N. Security Council for further consideration.
    Aside from action at the United Nations, we have successfully urged 
the European Union, to impose additional sanctions, including by 
freezing the assets of the Syrian National Oil Company, Syrian National 
Gas Company, and the Central Bank of Syria until the Syrian Government 
ends gross human rights abuses against its citizens.\1\ The EU has also 
frozen the assets of 35 Syrian officials and four entities in response 
to Syria's widespread human rights abuses. The EU imposed similar 
assets freezes against the Libyan oil sector and central bank in March.
---------------------------------------------------------------------------
    \1\ Under Syrian law the government is the major shareholder in the 
oil and gas sector through its ownership of the Syrian National Gas and 
Syrian National Oil companies. These two companies have a 50 percent 
share in every oil and gas project in Syria. In a March 2010 report, 
the International Monetary Fund estimated that the Syrian Government 
earns approximately =2.1 billion from oil and gas revenues per year. 
Most of Syria's oil and gas is used domestically, but it exports about 
150,000 barrels per day, and around 95 percent of that goes to Europe, 
primarily to Italy, the Netherlands, France, and Germany. We have urged 
the EU to conduct regular reviews of the impact of sanctions to assess 
any potential humanitarian impact, and to tie the lifting of the 
sanctions to measures that demonstrate a change of policy by the 
government, such as an end to the use of excessive and lethal force 
against peaceful demonstrators, releasing all detainees held merely for 
participating in peaceful protests or for criticizing the Syrian 
authorities, and full cooperation with the fact-finding mission 
mandated by the United Nations Human Rights Council or other 
international mechanisms tasked with investigating alleged human rights 
violations.
---------------------------------------------------------------------------
    It may be that no amount of international pressure will have an 
immediate effect. But over time, we believe that coordinated 
international sanctions, including those that target specific 
individuals, can weaken support for the government's abuses among key 
political groups.
                          key recommendations
    There are a number of concrete measures that the international 
community, including the United States, can take to protect civilians 
in Syria. We urge the United States to work with its allies, 
particularly its allies in the Arab world, to achieve the following 
goals:

  <bullet> Granting Unhindered Access to Independent Observers: As 
        reporting on Syria gets more difficult and countries interpret 
        events on the ground very differently, there is a need for 
        independent observers on the ground who can document and 
        publicize what is happening. The U.S. government and its allies 
        should push the Syrian Government to allow the Commission of 
        Inquiry appointed by the Human Rights Council to have access to 
        the country and ensure full cooperation from the Syrian 
        authorities in conducting its investigations.
  <bullet> Deployment of Monitors: Another step that could make a 
        difference on the ground immediately is the deployment of human 
        rights monitors in Syria. An independent monitoring presence 
        could help clarify the situation on the ground, ensure rapid 
        responses to violations reports, and provide reliable reporting 
        concerning ongoing violations, as well as addressing such 
        issues as the extent of use of force by protesters. In 
        addition, a monitoring presence in hotspots within Syria could 
        lead the security forces to use greater restraint and reduce 
        the level of violations itself.
  <bullet> Timetable for Implementing Reforms: President Assad's 
        promises of reform are not credible as long as security forces 
        are shooting at protesters and detaining activists. The 
        international community needs to set a timetable for reforms 
        and hold the Syrian authorities accountable for respecting the 
        timetable. Some reforms should be immediate, such as the 
        release of all detainees held merely for peaceful protest or 
        political activity, and an accounting for all those detained 
        and being held incommunicado.
  <bullet> Preventing Syria from Obtaining Surveillance Technologies: 
        Recent reports indicate that Syria is in the process of 
        constructing an elaborate surveillance network to track the 
        communications and activities of its citizens.\2\ To set up the 
        system, it needs to obtain specific surveillance technologies 
        from a number of Western countries, including the United 
        States. These countries should be actively looking for ways to 
        discourage or prevent the sale of such technologies to Syria. 
        The U.S. Congress should ensure that existing U.S. sanctions 
        and export controls are adequate to address this situation, and 
        urge other countries, particularly in the European Union, to 
        adopt similar restrictions on Syria. Going forward, the U.S. 
        Congress should examine U.S. export control laws and 
        regulations to ensure that surveillance and other technology 
        cannot be sold to governments likely to use it against their 
        citizens or to further repression.
---------------------------------------------------------------------------
    \2\ See ``Syria Crackdown Gets Italy Firm's Aid with U.S.-Europe 
Spy Gear,'' Bloomberg News, November 3, 2011 (available at http://
www.bloomberg.com/news/2011-11-03/syria-crackdown-gets-italy-firm-s-
aid-with-u-s-europe-spy-gear.html).

    Finally, we urge the U.S. Government to support U.N. General 
Assembly action on Syria, including the establishment of a U.N. Special 
Envoy on Syria and support referral of the Col report to the U.N. 
Security Council for further action. We also hope the United States 
will provide meaningful and public support for the work of the Human 
Rights Council, its Commission of Inquiry, and the OHCHR in Syria, and 
undertake to follow up on reports and recommendations emanating from 
the U.N. human rights organs.
                                 ______
                                 

Response of Assistant Secretary of State Jeffrey D. Feltman to Question
                 Submitted by Senator Richard J. Durbin

    Question. There have been several recent disturbing reports that 
U.S. manufactured technology is, despite sanctions, winding up in the 
hands of the Assad regime in Syria where it is being used as an 
instrument of suppression, preventing the Syrian people from 
communicating with one another and with the outside world. Two 
companies specifically cited in a November 14 Bloomberg article are Net 
App, Inc. and Blue Coat Systems, Inc. both based in Sunnyvale, CA.

  <bullet> Given that we have sanctions in place and that there has 
        never been a more critical moment in history for supporting 
        opposition voices in Syria, what more can we do to prevent 
        this?
  <bullet> What evidence is there to indicate Net App and Blue Coat 
        products are, indeed, being used in Syria?
  <bullet> How will company officials be held accountable if: (a) it's 
        confirmed that their products are not being used in Syria and 
        (b) that they could have reasonably assumed that this was the 
        final destination for the products sold to a third party?

    Background: Bloomberg reported on November 14 that the Italian 
company Area SpA has been installing a wide-reaching Internet 
surveillance system (Asfador) for the Syrians in a $17.9 million deal, 
using equipment from the U.S. company NetApp Inc., France's Qosmos SA 
and Germany's Utimaco Safeware AG.
    Asfador, per Bloomberg, includes ``the capability to intercept, 
scan, and catalog virtually all e-mail flowing through Syria . . . The 
software and hardware for archiving e-mail came from NetApp, a 
Sunnyvale, California-based company with a market value of about $15 
billion and more than 10,000 employees.'' According to Bloomberg, `` 
The story also indicates that ``at least some NetApp employees probably 
knew who the end-user was.''NetApp has received U.S. Government 
contracts worth more than $111 million since 2001, including one on 
September 15. There are also reports that technology made by another 
Sunnyvale-based company, Blue Coat Systems Inc., is being used by Syria 
to censor the Internet. http://www.business
week.com/news/2011-11-14/companies-that-aid-syria-crackdown-deserve-
sanctions-slap-view.html.

    Answer. The Department of State is both aware of and concerned 
about recent reports regarding the use of U.S. technology by repressive 
regimes in general, and Syria in particular, to target human rights 
activists and dissidents. We take these reports very seriously. At this 
time, the U. S. Department of State has no further evidence that Net 
App or Blue Coat Systems' products are being used in Syria beyond what 
has been publically disclosed by the respective companies.
    The United States has maintained stringent controls on exports and 
reexports to Syria since the implementation of the Syrian 
Accountability Act in 2004. With very narrow exceptions, exports and 
reexports of items subject to the Export Administration Regulations 
require a license issued by the Department of Commerce's Bureau of 
Industry & Security (BIS). Both U.S. and foreign companies that violate 
U.S. export controls may be subject to civil and criminal penalties. In 
addition to controls on exports, the Department of the Treasury's 
Office of Foreign Assets Control maintains additional controls on the 
export and reexport to Syria by U.S. Persons of goods and services. Our 
export control policies are designed to assist ordinary citizens who 
are exercising their fundamental freedoms of expression, assembly and 
association, while preventing exports of goods and services that 
repressive regimes can use against their people.

                                  <all>

</pre></body></html>
